<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 116-13]

  NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN EUROPE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 13, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-299                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                       Barron YoungSmith, Counsel
                  Kim Lehn, Professional Staff Member
                          Justin Lynch, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     2

                               WITNESSES

Scaparrotti, GEN Curtis M., USA, Commander, U.S. European Command     6
Wheelbarger, Hon. Kathryn, Acting Assistant Secretary of Defense 
  for International Security Affairs, Department of Defense......     3

                                APPENDIX

Prepared Statements:

    Scaparrotti, GEN Curtis M....................................    67
    Wheelbarger, Hon. Kathryn....................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Gallego..................................................    92
    Mr. Larsen...................................................    91
    Mr. Rogers...................................................    91
    Ms. Stefanik.................................................    93
  
.  
  NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN EUROPE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 13, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. If I can call the meeting to order. Welcome 
all.
    One little housekeeping item. The timer--actually, they 
appear to be working now. Miraculous. The timers were not 
working, but now they are.
    Today we are having our posture hearing on the European 
Command, and our witnesses are Ms. Kathryn Wheelbarger, who is 
the Acting Assistant Secretary of Defense for International 
Security Affairs.
    Good to see you. I think the last time we saw you it was 
your first hearing before Congress. So welcome back as a 
veteran now.
    And General Curtis Scaparrotti, who is the commander of the 
U.S. European Command, and once upon a time, when I represented 
Joint Base Lewis-McChord, was the commander out there and did 
an outstanding job for our community.
    So I appreciate your leadership and it is good to see you 
again.
    There is a lot going on in the world, and certainly there 
is a lot going on within your jurisdiction. We appreciate you 
being here. We appreciate your leadership.
    There are a number of issues. I think the most pressing 
thing in terms of the European Command right now is maintaining 
our strong alliances within NATO [North Atlantic Treaty 
Organization].
    Certainly, it is important to meet the needs and demands 
right now that are present in Europe as we try to deal with 
Russian interference in elections and democracy writ large; 
also, obviously, what is going on in the Ukraine and elsewhere.
    But it is equally important to make sure that we maintain 
those alliances, because our allies in NATO are helping us 
throughout the world, in Afghanistan, in Africa, in the Middle 
East. Those alliances are crucial to us meeting our national 
security objectives, not just in Europe but throughout the 
globe.
    So would love to get an update from you on where you see 
that, how we are doing with our NATO partners, and how we can 
work to make sure that we maintain that alliance.
    Towards that end, I think one of the most crucial items 
that we are going to talk about is the European Defense 
Initiative and making sure that we maintain that. The 
President's budget cuts it and also puts it into OCO [overseas 
contingency operations], which makes our European allies 
uncomfortable.
    At this point, OCO may sound like it is supposed to be an 
emergency, but it seems like a rather permanent emergency. So 
they should feel better about that.
    But certainly, the cut in the spending of EDI [European 
Deterrence Initiative] is concerning, because I believe, 
General Scaparrotti, you have said that in order to present the 
credible deterrent that we need to stop Russia from doing 
anything in Eastern Europe, we need more forces, more--well, we 
need more in Europe to be able to put ourselves in that 
position. We have made quite a bit of progress in the last 
couple of years, but there is still more left to be done.
    And that, of course, is the overarching issue in that part 
of the world and, regrettably, in more, and that is Russia's 
malign influence. And would love to get your perspective on 
both what you think they are going to do next and how best we 
could deter that.
    Because I think their objectives are very straightforward 
at this point. As I like to put it, they want to make the world 
safe for kleptocratic autocracy. That is their form of 
government. And to do so, the number one thing they try to do 
is undermine confidence in democracy, make people believe that 
democracy really doesn't work, really doesn't provide for them.
    And the frightening thing about that is it is kind of 
working. If you look at polling data in the U.S. and across the 
world, support for democracy is lower than it has been in quite 
some time. And a lot of that is because of the efforts of 
Russia to undermine it. And not just the elections, but to stir 
up division and hatred within Western democracies to undermine 
people's confidence in their government.
    Now, I firmly believe--and I will go ahead and channel 
George W. Bush--that freedom works. Economic and political 
freedom makes the world a safer and more prosperous place. And 
the degree to which Russia is successful in undermining it, the 
world will be a less prosperous and less safe place. So we need 
to make sure that we work to push back on that.
    The European Command is going to be at the center of that 
because of Russia's presence and, as I mentioned, also because 
of how important our European allies are in prosecuting this 
fight.
    And with that, I will yield to the ranking member for his 
opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and I join you in 
welcoming our witnesses.
    General Scaparrotti, I understand this may, unfortunately, 
be one of the last times that you testify before us. If so, I 
want to go ahead and thank you for your service.
    You have been assigned two of the most difficult jobs that 
I think anybody in the military can be assigned, as our 
commander in Korea and now as our commander in Europe. Both of 
those jobs have required working with allies. Both of those 
jobs have required facing formidable adversaries. I think the 
fact that you have held both of them are a signal of the trust 
and respect that your colleagues and many of us have put on 
you.
    And so, like the chairman, I am interested in your views on 
the state of the alliance. I would slightly correct the 
chairman, that it is not just George W. Bush who believes 
freedom works. It has been Republicans and Democrats for the 
last 70 years have invested in a world system of systems. And 
we have put our money and our blood and treasure into the idea 
that freedom works.
    As you and I have talked before, Members of Congress, 
including members of this committee, try to play a constructive 
role in the NATO alliance. You have got folks on the Inter-
Parliamentary Union. You have got regular visits back and 
forth, not only with parliamentarians, but with defense 
officials. A number of us were able to see you in Munich 
several weeks ago.
    So I do think it is important to know your view of the 
state of the alliance today, especially versus when you came 
there 3 years ago.
    Secondly, related to the alliance, NATO has made a 
significant decision to modernize our nuclear deterrent. And I 
think we need to hear and focus on, from you, the importance of 
that decision and especially how it relates to Russia. And we 
will, I am sure, have a number of questions related to that.
    Finally, I notice you made a little news when you testified 
in front of the Senate maybe last week that we were not yet as 
prepared as we needed to be to deal with the range of threats 
coming from Russia in Europe. I would be interested, and I am 
sure you will in your testimony, talk a little more about that.
    I am particularly interested in your perception of the 
state of our forces that are rotated through EUCOM [U.S. 
European Command], because it has been a major effort of this 
committee to improve the readiness of our forces over the last 
couple years.
    And so it will be interesting, I think, for us to hear--it 
is not your responsibility to make them ready, but you are a 
consumer of that readiness in a way--whether you are able to 
tell a difference.
    As the chairman said, there are lots of issues to discuss. 
We look forward to both of your opinions as we do so.
    I yield back.
    The Chairman. Thank you.
    I believe Ms. Wheelbarger is going to go first.

    STATEMENT OF HON. KATHRYN WHEELBARGER, ACTING ASSISTANT 
   SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, 
                     DEPARTMENT OF DEFENSE

    Ms. Wheelbarger. Yes.
    Chairman Smith, Ranking Member Thornberry, distinguished 
members of the committee, thank you for inviting me back again, 
this time to testify on policy matters related to the EUCOM 
theater alongside General Scaparrotti. General Scaparrotti has 
been a great partner for me in particular for the past few 
years and an impressive leader his entire career, so it is an 
honor to appear with him here today.
    Our policy approach to Europe, like other geographic areas, 
is guided by the National Defense Strategy, which recognizes 
the importance of Europe and our NATO allies and partners. We 
recognize as well the national security threats, particularly 
from Russia and China, that mark a new chapter in global great 
power competition.
    The history of the 20th century proved that our core U.S. 
interests in Western values, economic freedoms, and democratic 
legitimacy require us to defend our Western allies against 
threats from authoritarian regimes.
    If future war were to come, and hopefully it never will, 
our troops will be at the front lines, because we cannot thrive 
alone in a bleak world of dictators and autocrats. And this is 
the heart of our Article 5 commitment.
    Over the course of 70 years, NATO continues to provide an 
integral means for the United States and allies to defend our 
interests by collectively deterring potential conflict, thereby 
saving lives, saving dollars, and saving our way of life. And 
over the last 5 years, we have successfully built increasing 
multilateral pressure against Russian aggression through 
sanctions, diplomatic expulsions, coherent condemnations, and 
significant increases in NATO spending and reforms.
    Our European allies and partners are also beginning to 
grasp the security threat posed by an increasingly assertive 
China. Some of China's recent investments in Europe's critical 
infrastructure, to include telecommunications, ports, railways, 
and cutting-edge technologies, are a threat to NATO security 
and unity.
    In the face of this volatile world, our defense policy 
objectives in Europe are focused on improving our deterrence 
and confronting Russian activities that threaten a free and 
open international order.
    The Department is also focused on countering the increased 
malign activity of China, maintaining partner support of our 
efforts to handle Iranian aggression, and working with our 
allies and partners to counter the continued threat of 
terrorism. As the chairman mentioned, some of our closest 
allies and partners in Europe are deployed alongside us in 
Afghanistan, Syria, Iraq, and beyond.
    United States alliances, partnerships, and overseas 
presence in Europe are invaluable force multipliers for the 
United States. They allow to us project power and defend 
ourselves forward. Maintaining a credible nuclear force and a 
robust presence in Europe enables DOD [Department of Defense] 
to dissuade aggression as we position our forces forward to be 
prepared to fight the away game if we must.
    The Department is focused on encouraging an increase in the 
amount and quality of NATO burden sharing to ultimately benefit 
the entire alliance, including the United States. Our teams are 
engaging with partners and allies daily to ensure that NATO is 
adapted to today's conditions and able to deter Russian 
aggression and malign Chinese influence. Our alliance knows 
that our threats are shared and meeting their commitments on 
defense serves all of us.
    In some specifics, NATO's eastern flank, from the Baltics 
to Bulgaria, has been a recent focus of our posture response to 
an aggressive Russia. We have rotated forces to reassure our 
allies and deter Russia and welcome contributions to enhance 
forward presence in Baltic air policing missions.
    In the Baltic States and Poland, the front line of NATO's 
deterrence and defense on the eastern flank, Russia continues 
to use disinformation, cyberattacks, and military posturing to 
undermine the security of the Nordic-Baltic region. DOD, with 
the Department of State, is bolstering the eastern flank allies 
through security cooperation and capacity-building initiatives 
to improve defense and security infrastructure and improve 
resilience.
    In southeastern Europe, Russian aggression has manifested 
itself over the past decade. Like Poland, Romania has been a 
forward-leaning NATO ally that has been fully supportive of a 
U.S. presence. And we continue to review our posture in the 
region to ensure our deterrence is solid and we can respond in 
an Article 5 scenario.
    Beyond NATO, Ukraine and Georgia are vital defense partners 
in Europe's eastern flank and Black Sea region. In Ukraine, 
Russia occupies Crimea and fuels conflict in the Donbass to 
change borders by force and undermine a Europe that is whole, 
free, and at peace.
    The United States remains steadfast in its support for 
Ukraine's sovereignty and territorial integrity. The $1.2 
billion in U.S. security assistance from the United States to 
Ukraine since 2014 helps it build its long-term defense to 
deter Russia in the future.
    The U.S. is equally committed to Georgia's sovereignty and 
territorial integrity. Georgia is a key strategic partner, as 
it provides unconditional ground and air transport for us to 
Afghanistan, and is the largest non-NATO contributor to NATO's 
Resolute Support Mission in Afghanistan. With 870 Georgians 
currently in Afghanistan, Georgia is the largest per capita 
contributor to that mission. The U.S. is developing Georgia's 
capacity to train, equip, and sustain its own forces to 
preserve its independence.
    Europe's southern flank also demands attention. Chinese and 
Russian influence, as we discussed last week, in Africa 
continues to grow. Therefore, the Department has worked with 
Southern European allies in Italy, Greece, Spain, and Portugal 
to enhance our force posture, to protect U.S. diplomatic 
presence in Africa, protect Europe, and project security into 
the greater Mediterranean and Africa. Bases in Greece, Italy, 
and Spain host force posture elements for both EUCOM and 
AFRICOM [U.S. Africa Command].
    Turkey is another critical ally on NATO's southern flank. 
Turkey contributes to coalition missions, including 
Afghanistan, Iraq, and Kosovo, and we continue to reiterate the 
importance of Turkey remaining grounded in the NATO security 
structures.
    At the same time, the United States has been clear in 
expressing its concern about Turkey's stated intent to procure 
the S-400 from Russia, which would introduce risks to U.S. and 
NATO defense technologies. We thank Congress for its support in 
offering the Patriot FMS [foreign military sales] case to 
Turkey as an alternative to the S-400. We will only continue to 
discuss that potential sale with Turkey if it commits to not 
accepting the S-400.
    EUCOM also covers Israel, a critical partner in a volatile 
region. The Department supports Israel through joint exercises, 
co-development of missile defense architecture, and supply of 
advanced weapons and technology, proving our commitment to 
Israel's qualitative military edge. Our defense relationship is 
extensive, covering the range of global and regional challenges 
we face together.
    In conclusion, with your continued support the Department 
will continue to meet the threats that we face in Europe and 
beyond while increasing the lethality of our Armed Forces. 
Thank you for inviting me today.
    [The prepared statement of Ms. Wheelbarger can be found in 
the Appendix on page 47.]
    The Chairman. Thank you very much.
    General Scaparrotti.

 STATEMENT OF GEN CURTIS M. SCAPARROTTI, USA, COMMANDER, U.S. 
                        EUROPEAN COMMAND

    General Scaparrotti. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, good 
afternoon and thank you for the opportunity to appear before 
you today as the commander of the United States European 
Command. It is also a pleasure to appear today with Ms. 
Wheelbarger, who, as she stated, we work daily together and 
have for several years now.
    First and foremost, I want to thank you, the Congress, for 
your support of the service members, civilians, and their 
families in Europe. These warriors demonstrate selfless service 
and dedication to the Euro-Atlantic defense, a mission that is 
essential to our national security and to maintaining global 
peace and prosperity. We as a Nation are blessed by their 
voluntary and exceptional service. Also, thank you for your 
steadfast support of these patriots and their mission.
    The threats facing U.S. interests in the EUCOM area of 
responsibility, which includes Israel, are real and growing. 
They are complex, transregional, all-domain, and 
multifunctional.
    This remains one of the most dynamic periods in recent 
history, in my opinion. Russia has continued its reemergence as 
a strategic competitor and remains the primary threat to a 
stable Euro-Atlantic security environment. While the United 
States maintains global military superiority over Russia, 
evolving Russian capabilities threaten to erode our competitive 
military advantage, challenge our ability to operate 
uncontested in all domains, and diminish our ability to deter 
Russian aggression.
    In light of Russia's modernizing and increasingly 
aggressive force posture, EUCOM recommends augmenting our 
assigned and rotational forces to enhance our deterrence 
posture. EUCOM also recommends further investments that enhance 
European logistical infrastructure and capacity to support 
rapid deployment of multi-domain U.S. forces into Europe.
    In addition to the threat from Russia, the risk of 
terrorism in Europe remains high, despite a decline of 
fatalities from terrorist attacks in 2018. Violent extremists 
present a clear and persistent threat to Europe's people and 
its infrastructure.
    Thankfully, the United States is not alone in facing these 
and other challenges across the Euro-Atlantic theater. As our 
National Defense Strategy states, the NATO alliance deters 
Russian adventurism, contributes to the defeat of terrorism, 
and addresses instability along NATO's periphery.
    Our allies and partners play a vital role in our collective 
security, and they have made significant progress in increasing 
the cash contributions and capabilities that provide our common 
defense. For almost 70 years, NATO has been the cornerstone of 
Euro-Atlantic security. As NATO adapts to remain relevant and 
fit-for-purpose, we will find, as we always have, that every 
challenge is best addressed as an alliance.
    Let me close by again thanking Congress, and this committee 
in particular, for your continued support, especially sustained 
funding of the European Deterrence Initiative. EUCOM's future 
success in implementing our National Defense Strategy and 
fulfilling our mission is only possible with Congress' support.
    Thank you. And, again, I look forward to your questions.
    [The prepared statement of General Scaparrotti can be found 
in the Appendix on page 67.]
    The Chairman. Thank you both.
    To begin with, if you could give us a little greater 
insight on Russia and what you see their next steps are and 
what is most important for us to deter them. What do we need to 
be most worried about in terms of what Putin is going to try to 
do next in your theater? And, again, what are our best steps to 
try and counter that?
    General Scaparrotti. Well, I think, first of all, I am very 
concerned about their modernization program. We can cover that 
in more detail in a closed session. But it is real and it is a 
good modernization program that he has been able to keep on 
track, by and large.
    And so while today, as I noted in my opening, we have a 
dominant force, in the years ahead we won't unless we continue 
to invest as well so that we pace ahead of their modernization 
program. And I will speak in more detail in a closed hearing on 
that.
    Secondly, they continue their malign influence in Europe, 
throughout Europe, particularly in the area that they believe 
they should have preferred influence along the eastern border.
    I believe that they continue to have a goal of establishing 
themselves as a respected global leader and that they have a 
goal of increasing their influence, particularly on their 
border and their flanks, and they will use both malign 
influence as well as illegal activities to do so.
    I think your next step, Mr. Chairman, I am concerned about 
the Balkans, and we see increased malign influence there in the 
past year, an area that we have invested in heavily and is 
critical to the security of Europe.
    The Chairman. Ms. Wheelbarger, do you have anything to add?
    Ms. Wheelbarger. I would agree with the general. I think 
Russia's ability to make the West, as you indicated in your 
opening, question its own institutions, is one of the biggest 
challenges we have because it sort of takes a whole-of-
government effort to respond to it.
    Militarily, I think we are very adept and I trust our 
forces to be able to always outmatch any adversary, including 
Russia. But our ability as a society to ensure that we trust 
our own institutions in the face of their particularly 
aggressive information operations and use of social media to 
undermine us is significant. As the general said, we see it 
play out daily across the periphery.
    The Chairman. Can I focus in on just that one piece of it, 
because it strikes me that this is primarily--at the top, it is 
an information campaign. Certainly, as you talked about, 
General, the modernization, what forces do we have to deter if 
a war comes to pass.
    I mean, Russia understands the cost if they do that, 
regardless of what modernization they do. Not to say that there 
is not a risk of that, but the risk of that happening is lower. 
Obviously, if it does it is incredibly disruptive.
    But what is absolutely happening is the information 
campaign, is the constant effort to attack us in every medium. 
I mean, social media is the focus, but they do it through 
traditional media as well.
    They do it through different organizations as they--sorry, 
and I don't mean this in any partisan way, it is just what 
comes to mind--they infiltrated the NRA [National Rifle 
Association] here to see what they could do to stir things up. 
They have been in some cases trying to stir things up with 
Black Lives Matter, just to be bipartisan.
    So my concern is we don't seem to be doing much in 
response. It is a campaign. It is a public information 
campaign. And granted, it is complex, given social media and 
given how cyber works now. But at the end of the day every 
campaign is simple: develop a message and deliver that message 
to the people you are trying to influence.
    I don't see us doing that. I don't see us going out there 
and arguing, you know, a negative campaign--here is what is 
wrong with Russia, okay, don't believe what they are saying.
    So are we organizing that effort and working with our 
allies to fight the information battle that Russia is so 
clearly engaged in? And what can we do better in that area?
    Ms. Wheelbarger. I will start. I see us actually very much 
proactively working with the alliance to develop tools and 
messages to counter this information operations effort.
    We, in the North Macedonia case, I think had successes in 
helping them and learning from them, actually, in how they can 
successfully sort of develop a message in the beginning, 
expecting what the Russians were going to do and sort of 
setting the battle space, so to speak, in terms of what the 
positive messages are before the Russians even engaged. And so 
I think in that particular context, the Russians were surprised 
that they did not have a larger effect.
    So there is most definitely more to be done. It is a 
challenge whole-of-government-wise, all of alliance.
    I think one of the key things we can do is ensure strength 
and unity of messaging on the alliance itself, because one of 
the key goals of the Russians is obviously NATO disunity.
    And so every time we successfully counter that, we have a 
successful summit, successful defense ministerials, where we 
come out with advancing reforms for the alliance, I think that 
is one of the key ways we do counter their messaging.
    General Scaparrotti. Chairman, a quick response to this is, 
first of all, I think that we could do more, that we have 
greater talent. We need more focus and energy. I appreciate the 
Congress' focus on this. You have, in fact, funded some of the 
organizations that have increased what we are doing.
    I think we have improved, but we can do more. So things 
like the Russian Influence Group, which I co-chair with 
Department of State, is an interagency group that over the last 
couple of years has grown. We have had greater effect.
    And we actually have programs working, particularly in the 
eastern part of Europe today, thanks again to the funding of 
Congress. A part of that is the Communications Engagement 
Group, the CEG, which has been a big part of that and also 
would be for any response in the future.
    And then finally, our work with NATO. NATO actually has 
developed what I think is a pretty effective communication 
strategy and framework that they adjust over time. They have 
got an annual framework, and then they have it for specific 
events where things are developing. And we have actually shown 
that we can develop a message that has greater depth, 
penetration, and volume than the Russians have in the eastern 
side, and we have done this on several occasions where we set 
out early to be proactive.
    So, to me, it shows that we can do this. But we need to 
have greater focus and make this more the norm of what we do, 
because, as you said, they are pretty agile at this and they 
are everywhere.
    The Chairman. Thank you.
    I neglected to make this announcement at the outset. As 
with our hearing last week, there will be a classified session 
after this. Our goal is to be done by noon and to start the 
classified session upstairs at noon. So we will endeavor to do 
that.
    And with that, Mr. Thornberry.
    Mr. Thornberry. General, I would like to at least try to 
touch on the three issues I mentioned at the beginning.
    If you look at the state of the troops that are sent to 
EUCOM, come through EUCOM, their readiness, et cetera, how 
would you compare it today versus when you first arrived 3 
years ago?
    General Scaparrotti. It is absolutely better. It is much 
improved. The investment of Congress in particular and the 
focus of the services on readiness and aligned with the 
National Defense Strategy has paid off.
    Right now, my forces in Europe are at the highest readiness 
rates that they have been since I have been in command. It is 
very good. Particularly the rotational units, those are 
delivered ready.
    And my commitment to the Army, for instance, in the Army's 
case, is to return them just as ready as they came, because I 
believe I have got an experience and a training area there that 
allows me to do just that.
    So, in short, they are in a better place, but readiness is 
something that you have got to continue to invest in.
    Mr. Thornberry. Absolutely.
    You have touched on the state of the alliance, but can you 
just, again, give us kind of your overall perspective on the 
military integration state of the alliance now versus 3 years 
ago and, at least from your perspective, the political support 
for the alliance that you see with your two hats.
    General Scaparrotti. In terms of mil-to-mil [military-to-
military], the relationships within the alliance, I think they 
are at least as strong, if not stronger. It is a little 
difficult for me to be unbiased in this case, but over a 3-year 
period we worked this very hard.
    But when you look at what we have done in, say, the last 4 
or 5 years, my predecessor and now, the actions we have taken 
are really historic within NATO: NATO command structure 
adaptation, the deployment of forces to the east, the 
deployment of greater maritime forces at a greater schedule 
within the Black Sea, the Mediterranean, and actually the North 
Atlantic as well, the deployment of air forces for air 
policing, et cetera, the changes to readiness that is taking 
place in NATO right now.
    Those are really significant steps forward for NATO, and 
that is done because we have got a very close mil-to-mil 
relationship, interoperability is working better, there is an 
agreement to work our forces in a more effective manner. So I 
think the mil-to-mil is very good.
    On the political side of it, it is affected by the dynamics 
of our environment today, whether United States or Europe. 
There is more political tension. But, again, I would point to 
the fact that when you come to 29 at the table, NATO has every 
day made the commitment and delivered on the tough decisions 
that have to be made for the security of Europe, and that is 
encouraging to me.
    Mr. Thornberry. And finally, I know we will touch more on 
Russian nuclear doctrine when we go to the classified session, 
but we had an outside witness testify last week that, in his 
view, this Russian doctrine of escalate to deescalate was not 
real, that they didn't really believe it, that it was just kind 
of for show to scare us.
    This committee may be asked to make some decisions about 
whether to continue our nuclear modernization that 29 nations 
have agreed to. In your view, are the Russians serious when 
they openly talk about a use of nuclear weapons as a regular 
part of their military doctrine?
    General Scaparrotti. I would like to get into that more in 
the closed session. But I would just say that I think it is a 
part of Russian doctrine and their way of warfare, if you will, 
traditionally over time.
    I would say it is escalate to dominate, is the way they 
look at it. And if you look at the modernization of their 
weapon systems today, I think that you can see how those, in 
some scale of escalation, could be used to do just that, and I 
think they are actually being developed for that reason. And I 
can get into that in more detail in the secure session.
    Mr. Thornberry. Okay. We look forward to that.
    I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    General and Ms. Wheelbarger, thanks for coming.
    So I guess it was last month, several of us were in 
Brussels at the NATO Parliamentary Assembly meeting with 
members of Parliament from NATO countries as well as those who 
were acceding, and North Macedonia had representatives there 
for the first time.
    Thanks for not starting my clock, too, by the way. I will 
take 7 minutes. Darn it, why did I say that? I am just trying 
to be respectful of everyone else here.
    I guess I want to get to the point about, one, North 
Macedonia's accession, and our Senate has to act on that for 
our purposes. But it brought up other questions about the 
Balkans, the fact that North Macedonia was there, and Bosnia 
and Herzegovina had representatives there and others, as well 
as current allies like Croatia.
    You mentioned the Balkans as your number three, top three 
in terms of Russia causing problems there. Can you be more 
specific here in this setting about what Russia is doing in the 
Balkans that causes so much concern for existing NATO allies, 
as well as North Macedonia, and as well as Bosnia and 
Herzegovina?
    General Scaparrotti. Sir, I think, generally speaking, 
their efforts are to undermine any movement toward integration 
with the Euro-Atlantic, EU [European Union], NATO, et cetera. 
That is their general objective in every case throughout the 
Balkans.
    Primarily, they do this through disinformation. They do it 
through funding and support for fringe parties. They don't 
necessarily determine whichever side it might be on as long as 
it is undermining the present government and any forward 
movement within those governments. We see that and, as I said, 
I think that has stepped up in the past 6 or 8 months within 
the Balkans.
    I would also say that Montenegro's accession to NATO, now 
the 29th member, and North Macedonia, who would potentially be 
the 30th, I believe, is exactly what Russia did not want to 
see. I think they will continue to try and address this with 
North Macedonia, just as they tried to interfere in 
Montenegro's accession.
    Mr. Larsen. Yeah, because it is an alliance that needs to 
be--each alliance member needs to approve North Macedonia. It 
is not a 50 percent plus one, it is everybody, everybody is in.
    General Scaparrotti. Each nation.
    Mr. Larsen. Yeah. So is there a specific EUCOM role that 
EUCOM is playing, or is this more of a NATO role or State 
Department role to counter this specific set of circumstances?
    General Scaparrotti. Well, EUCOM has a role in it. And 
within these hybrid activities or activity below the level of 
conflict or indirect activity, we have precise military 
capabilities that we bring to bear, primarily having to do with 
military information support, some of our SOF [special 
operations forces] capabilities, for instance, cyber 
capabilities.
    But then the last thing is we work very closely with the 
interagency. And I would like to think that we are one of these 
places that pulls everything together. I have within my J9 
[interagency partnering directorate] an incredible group that 
does this, and I have people from Treasury, State, USAID [U.S. 
Agency for International Development], FBI [Federal Bureau of 
Investigation], Homeland Security, that help us ensure that we 
can address this as a whole-of-government approach 
appropriately.
    And that is what it really takes to counter this. So I 
think that is one of the major things that we do in EUCOM to 
help counter Russia's activities.
    Mr. Larsen. If I can jump across the Black Sea to Georgia, 
and either of you can answer this. Russia is occupying two 
areas of Georgia. The Georgians are very interested in getting 
in line and to get into NATO eventually. I certainly support 
that.
    What would be EUCOM's concerns or the Pentagon's concerns 
about a country like Georgia, which has territory that is 
occupied, from continuing to pursue a NATO membership? It is 
probably a civilian answer, not a military answer.
    Ms. Wheelbarger. Yeah. We obviously have a very close 
working relationship with the Georgians. They are one of our 
key partners. We are doing everything we can to build up their 
own defenses and ensure that they can train and equip for 
themselves, as I said in my opening.
    I think the fundamental challenge is, entry into NATO 
immediately, you question whether you are already in an Article 
5 scenario by mere entry because 20 percent of their territory 
is occupied. So that is the particular challenge when we look 
at their potential movement forward that we as an alliance have 
to think about and manage.
    But we are doing everything we can in the meantime to 
encourage them to stay close to us. They are one of our key 
partners. I just met with them last week. And they do all they 
can to stay close to the alliance, and we want to continue to 
encourage that.
    The Chairman. That is all the time we have, so I will go to 
Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And I would like to thank General Scaparrotti for providing 
this map. I think the American people need to know the success 
of the American military, of NATO, that we currently have a 
greater spread of freedom and democracy in Europe and across 
the world because of the American military presence providing 
freedom and democracy for countries that didn't have it.
    And in particular, I was an election observer in June 1990 
for the general with the new elections in Bulgaria. It was so 
exciting to see that country come to life. And over the years I 
have worked with it to see the development of Novo Selo, the 
training base there, with young Bulgarians and Americans 
training together.
    I have had the opportunity to visit MK [Mihail 
Kogalniceanu] Air Base in Romania, again, to see what was 
formerly a Soviet air base or Warsaw Pact air base, now so 
important in the global war on terrorism.
    With that background, can you let all of us know how 
important it is, the relationships that we have with our Black 
Sea allies of Bulgaria and Romania?
    General Scaparrotti. Well, sir, it is very important. As 
you noted, the bases you just named are a couple of those that 
are accessible, but not only us, but our NATO allies as well. 
And when you look at the Black Sea region, the criticality of 
that, it is actually the collection of allies in the Black Sea 
working together that provide the deterrence for any malign 
activity, Russia's malign activity, and secures their freedom, 
actually.
    So it is vital, and it is a very close and robust 
relationship. Romania, in particular, over the past 2 years has 
developed a force within NATO. That area, it is a forward 
presence there as well, common to the one that is up in the 
Baltics. And it is connected with joint forces, increased 
maritime activity by both the United States and then NATO writ 
large, as well as air policing. So it is critical and it is a 
great partner.
    Mr. Wilson. Well, thank you for your success, but the 
success of the American military really needs to be recognized.
    Germany is the home of so many extraordinary American 
military facilities, partly fueled by natural gas. The Army 
Corps of Engineers is currently building the largest military 
hospital, the Rhine Ordnance Barracks Army Medical Center near 
Kaiserslautern, Germany, which is a sister city of Columbia, 
South Carolina. And we are very grateful, General, that you are 
a graduate of USC [University of South Carolina], a Gamecock. 
We want the best at Kaiserslautern.
    But the concern I have is the reliance of Germany on 
Gazprom, on natural gas from the Russian Federation. We have 
already seen how they cut the gas off to the people of Ukraine.
    What concerns do you have about the reliance of providing 
the proper fuel for our facilities?
    General Scaparrotti. Well, we actually watch that closely 
in terms of fuels that we can provide, fuel, oil, et cetera. We 
have separate contracts to ensure that it is a safe and secure 
provision for our forces.
    And then within natural gas, et cetera, as we look forward 
to the Rhine Ordnance, we are doing a study there to make sure 
that we secure its energy needs as well in the future if there 
were a conflict or that energy source could be put at risk, 
primarily because, as you know, about 30 percent across Europe 
of--particularly their LNF [liquefied natural gas] needs are 
provided by Russia.
    Mr. Wilson. Thank you very much.
    And, Madam Secretary, a great achievement was to place 
American troops in Poland. It was a message to the Russian 
Federation that we are serious about defending our NATO allies.
    I had the opportunity last summer to visit with President 
Duda in New York. And, of course, he was so happy to be 
explaining how they would like to provide for a permanent 
military facility in Poland.
    What is the status of negotiations on developing the 
facilities in Poland?
    Ms. Wheelbarger. As you know, the Poles have made a very 
generous offer to us to contribute additionally $2 billion, 
perhaps more, to have additional U.S. forces and capability 
stationed in their country. The negotiations are actually 
ongoing. This very week, Under Secretary Rood is meeting with 
his counterpart the deputy secretary in Warsaw. I think it is 
today, actually. It might be tomorrow.
    We have come forward with, we think, a very serious, robust 
offer, and we are working out some of the technicalities this 
very week. And we hope to have a solid foundation to work from 
coming out of this meeting today.
    Mr. Wilson. Thank you very much. It is great to see U.S.-
Polish relations. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Cooper.
    I am sorry, Mr. Garamendi.
    Mr. Garamendi. Thank you, General, for your service here 
and all of these years. And Ms. Wheelbarger, similarly.
    The question of Poland just came up, and it is a question 
of permanent versus rotational. General, you spoke to the 
rotational issues and that you are receiving trained and 
prepared troops and you are sending them back just as well. 
Would you prefer that or would you prefer permanent? Or is 
there a combination?
    General Scaparrotti. Yeah. On the question of whether 
permanent or rotational forces, particularly in Poland, I think 
it is a mix. I am perfectly content with the large forces that 
we are rotating today. I get a ready force. I send it home 
ready. And the other thing is, is I get a large component of 
our Army that has been to Europe and understands the mission 
there. So there is some goodness in that.
    Some of the enablers, et cetera, some of the headquarters, 
a more permanent base is helpful, because of the relationships 
you build and the mission they have. So you will see a little 
bit of a combination there, from my point of view.
    Mr. Garamendi. Ms. Wheelbarger, the issue of a permanent 
base, you just spoke to that timeframe. Are we looking at an 
agreement sooner or later, or this year, next year? What is the 
situation?
    Ms. Wheelbarger. Essentially, the discussions that are 
ongoing right now in Warsaw, if we come to agreed terms on the 
foundation of our offer and their acceptance of that, we would 
then go to the State Department and seek the authority for the 
State Department to then be the lead negotiator for, again, the 
actual technical agreement that would be signed.
    In terms of the actual agreement between two countries, we 
are looking at probably 6 months to a year for that to be 
finalized. And then I would defer to my military colleagues for 
the actual physicality and infrastructure requirements, when 
that would actually come to----
    Mr. Garamendi. A couple of years, 2 to 3 years off before 
we would be dealing with an actual base and the money for that 
base. Okay.
    General, you spoke about the information campaign, that 
what is being done is good but it is not enough. What does it 
take to do enough?
    General Scaparrotti. Well, I think that we need to have 
more people involved in it and more resources, people and 
engagement, in terms of----
    Mr. Garamendi. Can you develop a specific plan and get it 
to us like sooner, like soon?
    General Scaparrotti. Well, it is not really mine to 
develop. You know, it is really a whole-of-government approach.
    Within the RIG [Russia Information Group], for instance, we 
have a plan for progressive improvement, and it is nested under 
our embassies' objectives in each of those countries. And I 
think that was a good start for us.
    But, for instance, with probably a little more resources 
behind that, we could do what we are doing at a faster pace. 
And, again, that is a whole-of-government approach; it is not a 
EUCOM one. I happen to co-chair it.
    Mr. Garamendi. In your position as co-chair, could you give 
us your best thoughts about the extent and the money necessary?
    General Scaparrotti. Yes.
    Mr. Garamendi. Because we are in the process of developing 
that.
    General, you also have recently spoken about the S-400 and 
F-35 in Turkey. I believe you raised this question at the 
Senate, and your answer was they are incompatible. Are you 
still holding that position after a week and a half?
    General Scaparrotti. Yes. I do believe that we shouldn't 
provide F-35s if there is an S-400 in Turkey.
    I would say that we are continuing to work this. Turkey is 
an important ally. We work with them every day. I know their 
leaders well. And our intent is to maintain them as an 
important ally, a NATO ally, into the future.
    Mr. Garamendi. With that, I will--OCO funding. The OCO 
funding has been reduced in the President's budget. We will 
deal with that. But the question is, should you have a 
permanent baseline funding rather than OCO funding? What effect 
has the--I think I am out of time. I will let my colleagues 
pick that up later.
    The Chairman. Actually, you bluffed us there. It sounded 
like you were done, so we zeroed it out. But as far as we know, 
you are out of time.
    So, Mr. Turner, go ahead.
    Mr. Turner. Thank you, Mr. Chairman. Thank you both for 
being here.
    I want to echo Joe Wilson's thank you, General, for the map 
that presents the march, as Joe Wilson was saying, the march of 
freedom. I know when you present a map like this you don't have 
to start with where we were in 1989, and I appreciate that you 
do, because it gives us the perspective of Russia's view and 
also where we have come from. So thank you for giving us that 
perspective.
    General, I want to speak to you first as the other title 
that you have, the Supreme Allied Commander of NATO. Secretary 
General of NATO Stoltenberg is going to be addressing a joint 
session of Congress in honor of the--he has been invited to 
address a joint session in honor of the anniversary for NATO.
    When the NATO Parliamentary Assembly just had its meeting 
in Brussels, and he was addressing our group at the NAC [North 
Atlantic Council], he indicated that as of next year it will 
appear as if the Wales charge of increasing to 2 percent 
expenditure will reach increased expenditures from our NATO 
allies to $100 billion additional funds spent.
    Could you speak to a moment as to how the coordination of 
that is happening? As increased dollars are coming into NATO, 
and Stoltenberg clearly has given Donald Trump's beating the 
drum as the credit for the success that we are having of the 
steep climb that is happening over the past several years, how 
is it being spent and are they working with you, as Supreme 
Allied Commander, to make certain that is efficient?
    General Scaparrotti. First of all, it is true that--and it 
is based on the request for plans by last 31st of December, 
this last year. Each nation was required to turn in their plan 
for meeting the 2 percent as well as the other requirements, 20 
percent of that amount toward modernization. And so as you look 
at that, that is the basis of what has been $41 billion to 
date, will be $100 billion by 2020, as you stated.
    So a couple of ways that works. One, that is in defense 
spending. So that naturally builds both readiness and 
capability within each of the nations that are then provided in 
capability as well as contribution by those nations. And we 
have seen in NATO over the last couple of years now an increase 
in both capability and contribution. That is the first way that 
you see it.
    The other is, is when we go through the NATO defense 
planning process, which determines any gaps that we have, what 
modernization we need or capabilities that we lack, it then 
assigns that to nations. And nations in NATO, you agree to your 
modernization and you are committed to it.
    And that is the other area where we see that increase in 
funding being important, because we, just as I said for the 
United States, all the nations face a need to modernize, just 
given the change in our security environment today, the 
character of war, as well as our competitors' capabilities.
    Mr. Turner. For both of you, I appreciate Mr. Garamendi's 
question on the F-35 and the S-400 in Turkey. We had a prior 
conversation before we came out here. As everyone knows on the 
committee, I have worked very diligently on the issue of the S-
400 and our opposition to Turkey having the S-400.
    But I would like, if you will, to just take a moment, each 
of you, to give us a commercial as we really do want Turkey in 
the F-35 program, right? I mean, it is not that we want to take 
the F-35 away. They are a partner. It is not just that we are 
using this as an excuse. The S-400 is a real problem, but at 
the bottom line we do want Turkey in the F-35 program, correct?
    Ms. Wheelbarger. Yes, absolutely.
    General Scaparrotti. I agree. And we want them to continue, 
as I said earlier, as one of our key allies in a very important 
place in the world.
    Mr. Turner. Excellent.
    General, I come from Dayton, Ohio, the site of the Dayton 
Peace Accord negotiations. The Balkans continue to be an area 
of focus. I have been very concerned that after what was I 
believe an unworkable long-term constitution was adopted as 
part of the Dayton Peace Accords, the Balkans have languished.
    Bosnia-Herzegovina frequently loses our focus because 
people don't believe there is a risk there. General, is there a 
risk in Bosnia-Herzegovina of violence?
    General Scaparrotti. The stability you see today is just 
kind of a veneer, in my view. I don't expect it to have the 
kind of confrontation we had in the past, but there is, one, 
increased tension, two, Russian interference. And also, I 
think, as the longer we go without some forward progress here, 
that people begin to lose hope, that, in fact, that desire to 
be integrated into Europe is being diminished.
    Mr. Turner. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    General Scaparrotti, last year when you appeared before our 
committee you testified that Russian submarine activity was at 
a level that we hadn't seen since the 1980s. I noticed on page 
5 of your testimony, again, you talked about the new guided-
missile submarine, the Severodvinsk. So is it your testimony 
today that that hasn't really changed from a year ago?
    General Scaparrotti. That is correct. And I would like to 
talk to you about that in particular in a closed session.
    Mr. Courtney. Great. Well, I think a topic which is 
certainly not classified is that the submarine fleet of attack 
subs is at 52 today. It is slated to go to 42 with retirements 
in the Los Angeles class.
    Given the capacity issues that you expressed concern about 
last year publicly, that decline, how would you describe the 
challenge that would face your successor if it were to go 
unmitigated?
    General Scaparrotti. Well, I think, one, it is really a 
Navy issue to determine their size and how they provide it. But 
for me, I have to maintain at least the capacity that I have 
today and look to an increase probably in the next couple of 
years in order, I think, to be a credible deterrent.
    Mr. Courtney. Well, last year, again, on a bipartisan 
basis, we did authorize going to three a year, which the 
administration opposed at that time. A couple days ago they did 
come around to the position that, again, this committee 
advanced on a bipartisan basis. So hopefully, that dip will not 
be as pronounced for your successor.
    In Ukraine, where the naval incident occurred back in 
November, I met with Admiral Voronchenko from the Ukrainian 
Navy who, again, described the fact that the sailors--there 
were about roughly around 20 sailors that were captured during 
that incident. He indicated that they are now being held in 
prisons in Moscow. Could you talk a little bit about just sort 
of this outrage in terms of the latest?
    General Scaparrotti. Well, I think it was an outrage in the 
sense that Russia blocked their passage to the straits. The 
Ukrainians made a decision not to force the straits and turn 
around and depart. It was actually on departure that the 
Russians fired on the ship, seized the ships, and took 24 
sailors, and they still have them in custody today in Moscow, a 
breach of international law.
    Mr. Courtney. Because their boats were in international 
waters, right?
    General Scaparrotti. At least one of those was in 
international waters by the time that they were literally 
heading out and it would have been clear to anyone that they 
had decided not to confront Russia on this at that time.
    Mr. Courtney. And I guess a couple of the sailors were 
actually cadets who were out there as training exercises. I 
mean, it was definitely not a hostile mission that they were 
engaged in.
    General Scaparrotti. But I think this is representative of 
the actions that Russia is willing to take in order to, in this 
case I think, enforce or establish their control of those 
straits, as well as the Sea of Azov, which actually is governed 
by both nations, Ukraine, by an agreement.
    Mr. Courtney. So in terms of the budget and your efforts to 
assist Ukraine, are there any naval assets or equipment that we 
are going to try and boost them?
    General Scaparrotti. We have and will continue to work on a 
maritime basis out of EUCOM with their naval forces. We have 
got a good relationship with them. And there are increases now 
with USAI [Ukraine Security Assistance Initiative] or the 
funding that we put forward in Congress here for maritime 
assets, two ships in particular, Island-class patrol boats, in 
order to begin to replenish their Navy, as well as other 
assets.
    Mr. Courtney. Thank you. And lastly, you described sort of 
the progress that our NATO allies are moving towards in terms 
of 2 percent GDP [gross domestic product] defense spending.
    General Scaparrotti. So, sir, just to give you a basis 
today, we have got 8 allies today that meet the 2 percent. 
There are 10 that have committed to be there by 2024. In other 
words, their plan is there, and they have got a plan that 
demonstrates that. And I have seen a steady growth in this in 
terms of the dollars that have returned.
    We have got to continue, in my opinion, to discuss with our 
allies the meeting of those responsibilities, because in 
today's security environment they need to invest and they need 
to modernize.
    Mr. Courtney. Well, the ``cost plus 50,'' which says that 
these countries have to pay for housing plus 50 percent, I 
would rather they spent the money on military equipment and 
readiness than, frankly, in a policy like that.
    So, anyway, I yield back.
    The Chairman. I am sorry, that is worth pursuing for just a 
second. There have been a lot of stories about this ``cost plus 
50'' proposal.
    To your knowledge, is it real? Is it something that is 
actually being talked about at the White House or the Pentagon?
    Ms. Wheelbarger. I would say with respect to our NATO 
allies in particular, our European presence, we really are 
focused on reaching the commitments that they have already 
committed to----
    The Chairman. I am sorry, that is a different question, and 
if you knew it was a different question.
    The point is, I am trying to get at, are we truly saying to 
our allies that we want you now to pay the cost plus 50 percent 
of our presence? And I know your portfolio is broader, so it is 
not just Europe. Is this something that the Pentagon and DOD is 
talking about, whether it is in Japan, in Europe, or wherever 
our troops are stationed?
    Ms. Wheelbarger. That is the piece where I have to defer to 
our IPSA [Indo-Pacific Security Affairs] colleagues who do 
cover the Pacific, because my understanding is that rhetoric 
came from conversations from the Pacific. It is not a 
conversation we have had in my portfolio at all.
    The Chairman. Okay. Well, just for the record, I think that 
would be a monumentally stupid approach. Our troops are present 
in these other countries primarily for our benefit or at least 
for mutual benefit. And as you can see, as we have seen in 
Japan and elsewhere, where it is incredibly strategically 
important for us to have that presence, it can be difficult. 
And if we start pushing our allies away, I think it is a huge 
mistake, but that is just for the record.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And Ranking Member Thornberry already asked you about 
readiness, but I would like to continue that train of thought.
    I see that our enhanced funding and readiness is due to two 
things. We had a bipartisan budget deal for 2 years that ends 
later this year and we have an administration, the Trump 
administration, that is very serious about increasing defense 
spending. So we are in a good place, comparatively speaking.
    However, if we go backward, if we don't have another budget 
deal going forward that keeps defense spending at a high enough 
level, what is going to happen to our readiness?
    General Scaparrotti. Well, I think, as I said, I think 
predictability is an important part of this. We have got to be 
able to see in the out-years what we think our spending will be 
in order to balance modernization and readiness as well.
    And I think if we were to go back to sequestration, for 
instance, it would be devastating, as it has in the past, 
because then you can't balance that tension very well. One of 
them is going to have to suffer, or probably both.
    Mr. Lamborn. Thank you.
    On Ukraine, you have already talked about that some and I 
the appreciate that. I have been there and I am aware that the 
people fighting for Ukraine are very brave and they are making 
the most with what they have. In fact, they are even exceeding 
some of the expectations, developing new uses for the equipment 
and armaments that they have in some creative ways. And you 
talked about the Navy. I appreciate that.
    But what more can we do or should do to supply lethal aid 
to land and naval forces to accomplish what you say here is the 
first line of effort to deter Russia? You know, this is the 
front line of deterring Russia.
    General Scaparrotti. Well, I think, first of all, we have 
got a program. We work closely with Ukraine in a couple of 
areas. One is the training piece of this and building 
capabilities. But we are building capability so that they can 
continue to train themselves.
    So, for instance, I am about to transition from training 
battalions down to brigades and above, because they have 
established the ability now to begin training their companies 
and battalions. That is progress that we are making.
    We are also shifting, probably if you looked at the 
training compared to reform and working at a defense 
institutional level, we are shifting more to that, with a 
greater perspective on that, primarily because to help them 
most now we have got to start helping them with their security 
strategy, with sustainability of a security force, and those 
kinds of things.
    And then, finally, more to your equipment question. You 
will see in the latest program that we have provided to 
Congress that that equipment that is in our recommendation is 
based on what they and we agree they need. Within that, there 
are some lethal aid, sniper weapons, ammunition, et cetera, and 
there is also a maritime component that I talked to earlier.
    But I would tell you that that equipment set is based on 
what their chief, their chairman equivalent, has told me as 
well as our counterparts as we work with them.
    Ms. Wheelbarger. I will just add as well that, a more 
political level, we continue to help and encourage Ukraine to 
have the kind of defense reforms and institutional reforms 
necessary to sort of sustain the fight over the long term. That 
includes anti-corruption efforts within their defense industry, 
as well as helping them develop sound civ-mil [civil-military] 
relations, to be able to address this.
    Mr. Lamborn. Thank you. And for either one of you, I was in 
Germany last month also, and there seems to be some 
schizophrenia. Germany is a very influential country, the 
dominant economic power of Europe. But on the one hand, Angela 
Merkel was the leading proponent for sanctions against the 
Russians after the invasion by the Russians of Ukraine. But on 
the other hand, they are accepting the Nord Stream 2 pipeline, 
and every time she is asked about it she comes up with a 
different rationale for doing it, almost like they don't really 
know why they are doing it.
    What can we do to help the Germans be more in sync with us 
in opposing Russian aggression?
    Ms. Wheelbarger. You were very correct that Angela Merkel 
has been very key on sustaining the multilateral sanctions 
efforts. And from a political level, one of our key messages is 
having the Germans help us make sure that we sustain that over 
the long term.
    In terms of recognizing sort of the threat to European and 
German security from their reliance on Russian energy sources, 
that continues to be one of our major sort of diplomatic 
efforts at very senior levels, to encourage them to diversify 
their energy sources for the good of their own security as well 
as the good of the alliance.
    Mr. Lamborn. Thank you.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you both for being here.
    General, I would like to talk about the United States 
response to Russian activities in EUCOM. The U.S. Army Europe 
states that Atlantic Resolve, an exercise to counter Russian 
influence in the region, involves three types of rotation: 
armored, aviation, and logistical.
    According to the Army's own fact sheet, Atlantic Resolve 
involves over 8,000 soldiers, 87 Abrams, 125 Bradleys, about 90 
helicopters, and over 1,000 other various vehicles, which 
doesn't even include the constant rotation of fighter aircraft 
from the Air Force.
    Do you know the approximate cost of Atlantic Resolve to 
date?
    General Scaparrotti. Not off the top of my head, but I can 
provide that.
    Mr. Moulton. We can get that for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Moulton. I'd also like to just--I imagine just simply 
the fuel costs for this exercise is extremely high. It would be 
great to get those costs for the record as well.
    General Scaparrotti. I will.
    [The information referred to was not available at the time 
of printing.]
    General Scaparrotti. Could I make a comment on that?
    Mr. Moulton. Sure.
    General Scaparrotti. The Atlantic Resolve exercise is 
literally the name that we give to this deterrence operation 
that is ongoing. So it is not, you know, in and of itself just 
an exercise. It is, in fact----
    Mr. Moulton. It is a deterrence operation.
    General Scaparrotti [continuing]. A deterrence operation.
    Mr. Moulton. Exactly. I couldn't agree more. It is 
incredibly important.
    Now, last year 4 Army Stryker vehicles collided in 
Lithuania, sending 15 soldiers to the hospital, and within 
hours an anti-American blog claimed a child was killed and 
posted a doctored photo of the incident.
    Now, this is Russian hybrid warfare, and Russia is using it 
actively, aggressively against us today. How much are we 
spending on cyber warfare in Atlantic Resolve?
    General Scaparrotti. Within Atlantic Resolve itself, it is 
not a great deal of money in terms of the cyber business, but 
we do spend a good deal of time training troops and then 
providing the capability.
    Mr. Moulton. So since we are talking about Atlantic 
Resolve, which as you said is the deterrence operation, and 
Russia is literally--this is how Russia is attacking us today. 
I would like to get for the record how much money in Atlantic 
Resolve is being spent on cyber and also just how many cyber 
personnel are involved.
    [The information referred to was not available at the time 
of printing.]
    Mr. Moulton. Myself, I went to Eastern Europe with Chairman 
Thornberry in 2015, and that delegation really opened my eyes 
to just how pervasive this Russian hybrid warfare is and how 
active it is today.
    Among other things, we learned about U.S. Army tank drills 
in Poland. The Poles were very excited about this. In speaking 
to Army officers there on the ground, I got the impression that 
they felt Putin was probably laughing at us, that he was busy 
undermining European governments of our allies and we are 
conducting tank drills like it was 1950.
    So a young captain, like the one I was speaking to there, 
if he understands this mismatch he can't take the money that he 
is allotted to spend on fuel for his tanks and put it into 
cyber to protect his unit, can he?
    General Scaparrotti. Well, listen, here are a couple of 
responses to your trend here.
    First of all, when you look at hybrid activities you are 
not going to see a great amount of money within, say, even EDI 
against that, it is about 10 percent. Because it is not about 
the amount of money, it is actually how you use your resources.
    And a good bit of it, like the response that we had to that 
accident and then their attempt at disinformation, is built 
within the standard cyber information apparatus that we have in 
Europe. And we did respond to that very quickly and 
effectively, pretty much killed that disinformation campaign 
quickly.
    Mr. Moulton. So you have also stated, General, that this 
requires a whole-of-government approach.
    General Scaparrotti. Yes.
    Mr. Moulton. I certainly appreciate that. The main U.S. 
counterpropaganda program is the Global Engagement Center 
funded by the Department of State. Would you recommend the 24 
percent cut to the Department of State?
    General Scaparrotti. You know, how much that is, is not 
mine to say.
    Mr. Moulton. Would you recommend that?
    General Scaparrotti. I would recommend that we fund the 
State Department to the extent that they can do the critical 
job they need to do, and we depend on that in Europe every day.
    Mr. Moulton. General, I would just like to say, you are the 
commander of EUCOM, and I have deep respect for the incredible 
responsibility you have. But whether Russia is attacking us 
through the Fulda Gap or through the internet, it is your 
responsibility to protect our allies and our troops, and I just 
hope we are modernizing in the right ways.
    Ms. Wheelbarger, you said that the most important thing we 
can do to counter Russian disinformation campaigns is to 
project strength and unity of message in the alliance itself. 
So if I were to, say, describe NATO by saying, quote, ``They 
want us to protect against Russia, yet they pay billions of 
dollars to Russia and we are the schmucks paying for the whole 
thing,'' would that project strength and unity of message on 
the alliance?
    Ms. Wheelbarger. I will just say the unity that we have 
seen over the course of the last 4 or 5----
    Mr. Moulton. Well, how about answering my question? Would 
that project strength and unity if I were to say that?
    Ms. Wheelbarger. I think encouraging the alliance----
    Mr. Moulton. Just yes or no, Ms. Wheelbarger.
    Ms. Wheelbarger. Could you quote it again?
    Mr. Moulton. How about when the President questions whether 
we would come to the defense of Montenegro if they are 
attacked, our newest NATO member? Raising that as a question, 
does that project strength and unity of the alliance?
    Ms. Wheelbarger. I think we should encourage all NATO 
allies to stay on message, that we have a strong Article 5 
commitment to the----
    Mr. Moulton. And I would argue that that might start with 
our Commander in Chief.
    Thank you.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Many of my questions have been asked. But with regard to 
Turkey, it is not just the issue of the S-400. I have no doubt 
that the Russians would give the S-400 without a fee to Turkey 
if that would disrupt NATO. So certainly they are an important 
part of our alliance.
    My concern is that they have in the past held U.S. Embassy 
personnel against their will. Now, these are Turkish citizens 
that worked for the U.S. Embassy. Have those issues been 
resolved as the Pastor Brunson issue has been resolved?
    Ms. Wheelbarger. I think the U.S. Government recognizes 
both the importance of the alliance with Turkey, but also that 
there are trends in their domestic space that are concerning to 
us. And we will continue to have those difficult conversations 
with our Turkish counterparts on their human rights record or 
other aspects of our relationship.
    I don't think all what we would call perhaps inappropriate 
detentions or political prisoners have been addressed and we 
need to continue to do so over the course of coming weeks and 
months.
    Mr. Scott. I just want to make sure that we take those 
detentions as seriously as we would take the wrongful detention 
of a United States citizen. Those are State Department 
employees and they should be treated with the respect that they 
deserve.
    And, General Scaparrotti, you have talked a lot about 
personnel and training and the resources that you needed. You 
mentioned gaps, in the testimony with Congressman Turner. What 
recommendations do you have for eliminating gaps in coverage? 
And what about your ISR [intelligence, surveillance, and 
reconnaissance] requirements? What percentage of the request 
for ISR is being met?
    General Scaparrotti. The ones that I am most----
    Mr. Scott. I am sorry, I can't hear you.
    General Scaparrotti. In terms of gaps, the ones I am most 
concerned about is ISR, which you just mentioned. I would 
prefer to talk about how much of that is being met in the 
closed session, but I can do that immediately after this.
    Mr. Scott. Okay.
    General Scaparrotti. Maneuver force, in terms of the size 
of my maneuver force, there are some key capabilities there 
that I require yet. And then also on the maritime, the maritime 
domain, some key capabilities there. And I can talk in details 
on those in the closed session.
    Mr. Scott. Okay. Also interested as well in the transport-
related challenges of that area. But I will yield the remainder 
of my time, Mr. Chairman, and I will look forward to the closed 
session.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Ms. Wheelbarger and General Scaparrotti, thank you for 
being here.
    Please describe as best as possible in an open setting the 
current state of Russia's efforts to utilize influence 
operations to interfere with elections in the United States, 
including: What is the role of the Russian Government and 
military intelligence? Have we learned any lessons about the 
best way to prevent Russian interference in U.S. elections? 
What should we be doing to accomplish that? And what other 
subversive activities are the Russians engaging in? 
Representative Moulton alluded to cyber as something more 
extensive that is happening.
    If you can touch on that, that would be great.
    Ms. Wheelbarger. As we have discussed previously today, a 
key component of Russia's strategy is to undermine the 
electoral systems of the Western world. That includes the 
United States.
    I think we have made significant progress over the course 
of the last couple years of really understanding their intent, 
but also harnessing whole-of-government tools to do something 
about it, to understand specifically not only what their intent 
is, but how they go about operationalizing that intent.
    Some of our knowledge and how we have countered it, I would 
recommend we move to the closed session to go into more detail.
    I think there is always more to be done because this is an 
area of conflict, quite frankly, that is rapidly innovative and 
constantly changing.
    So it is one of those areas where we can't say we did well 
last election, we don't need to worry about the next one. We 
constantly have to evolve, innovate, and make sure that we stay 
on top of what their capabilities are to be able to counter it, 
both in cyber, but also in the broader messaging domain.
    General Scaparrotti. Generally, I agree. It is both cyber 
information confrontation from their viewpoint, active not only 
in the United States in our election, but within Europe as 
well. And EUCOM has a part to play in this and did in this 
last, most recent activity to counter their interference.
    And I would like to leave the rest of that, as Ms. 
Wheelbarger said, to the closed session.
    Mr. Carbajal. I think just, in general, what I and many of 
my colleagues up here want to be assured of is that, one, we 
are really tracking it, and two, we are countering it, because 
our democracy is at stake. And we saw what transpired in the 
last election.
    And we just can't just sit idly by to learn about it, we 
really need to be aggressive ourselves in countering. And I 
look forward to hearing in a closed setting more about this, 
because it is of really, really great concern.
    Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. General Scaparrotti, it 
is good to see you again.
    I had a couple of concerns about some of the past 
exercises. And one of the exercises that Colonel Ellis, where 
he had, oh, I don't know, I think it was 21 vehicles that came 
from Poland all the way across to Georgia, crossing the Black 
Sea, the Danube. Absolutely incredible. I think they lost one 
vehicle that broke down.
    And the one thing that scared me was, and I have mentioned 
this before, was the EU, and the fact that for some reason they 
didn't get the word, they were a real problem in terms of the 
border police crossing. And it was primarily Romania, which I 
was very, very concerned about.
    I hope we do those type of exercises again. I thought the 
troops, they were exceptional. The vehicles just very, very 
impressive. And we were on the tail end of it.
    And, by the way, Joe Wilson was on that trip. I think he 
has 10,000 pictures of that. If you want to seek--he has copies 
that probably will go to his reelection campaign. No.
    Anyway, any comments on that, whether our relations with 
the EU, because sometimes they seem--I am not going to say as 
much of an enemy as the Russians, but they can be a problem.
    General Scaparrotti. Yes, sir.
    So EUCOM, working with NATO, and NATO with the EU, all of 
us together, we have taken a crack at this problem. And it is a 
function of our mobility capability within Europe, and it is 
the customs and laws that are different at every border.
    We have been successful in an agreement among the nations 
of specific timelines for the passage of military vehicles, in 
crisis and then for training. So that is the first step.
    Now, the step we are trying to do now is get that agreement 
down to the person at the border. And the way we are doing that 
is, as we continually rotate forces, whether it is for 
exercises or for the rotational force, we are using different 
roads, different rails, different trucking companies, different 
ports, different airports, in order to exercise that muscle 
throughout Europe.
    So we have exercised 22 different seaports, I think 24 or 
26 different airports. Three years ago to move a brigade was 
difficult because of the rules and because of the availability 
and the muscle memory. This past month we moved four brigades 
simultaneously across Europe, and that is real, that is a real 
advance in what we are able to do now.
    Mr. Cook. Just crossing the Black Sea, we had a few 
problems with, I don't know, the maritime administration or 
what have you. I hope that has been resolved. They have never 
done that before. But if we are going to reinforce across that 
large body of water, that is going to be important, I guess.
    I want to shift gears a little bit. I kind of got involved 
in a--it is kind of a foreign affairs problem. But I was very 
supportive of Gibraltar. This subject has come up. I wrote a 
letter or signed on it.
    I got a nasty letter back from the Government of Spain. And 
I had actually had the Catalonians in my office. I entertain 
everybody there. But I was a little perturbed on that, the 
politics. I thought they had overreacted. I am a big supporter 
of the Brits, they have been a friend a long, long time. It is 
close to Rota.
    Has that been on your radar or is this just something that 
I should ignore? I have got enough political enemies without 
having more in Spain.
    General Scaparrotti. It has been on my radar. These are 
policy issues for the most part. It is on my radar because of 
the importance of the passage.
    Mr. Cook. Okay. And the last question, on Sweden and 
Finland. Haven't heard much about them. Lately there was talk 
about is there a possibility they will ever come into NATO. 
Your comments, Joe's comments about submarines. I always 
remember, this shows my age, the ``whiskey on the rocks'' 
scenario, and you younger members can read the history books 
about that.
    The Chairman. Analogies aside, if we can get a quick answer 
to that because we are getting close to the time. Sweden, 
Finland, NATO.
    General Scaparrotti. Yes, sir. Sweden, Finland, great 
allies, working closely with NATO. My sense is there is an 
increasing awareness of this in those countries.
    Mr. Cook. Thank you.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    General Scaparrotti and Ms. Wheelbarger, thank you for 
being here today.
    General, in your written testimony, you stated--and I know 
you have been asked about it today, but I want to drill down a 
little bit--you stated that 16 NATO countries are now on pace 
to reach or exceed the 2 percent mark established under the 
Wales commitment, one more than you expected around this time 
last year. So that is progress.
    However, in addition to the amount that is being spent on 
defense, we need to ensure that our allies are spending on the 
right capabilities and the right equipment. There is a NATO-
mandated spending threshold of 20 percent of defense 
expenditures on major equipment and research and development, 
yet according to a CSIS [Center for Strategic and International 
Studies] report done within the last year, only 11 of 28 member 
countries meet this threshold.
    The question is, are there specific capabilities that we 
need more investment in from our allies?
    General Scaparrotti. Today they are at 15 now with the 20 
percent, which is a growth, and I think 11 that said by their 
plan they are going to meet that 20 percent.
    We give them specifically, each country, given the makeup 
of their nation, their location, their capability, specific 
capabilities that we need within NATO, and that is the way that 
is determined.
    But, generally, I would say that the larger things of long-
range precision munitions and platforms that use those 
munitions, integrated air and missile defense, are two of the 
larger things that are fundamental to security today and what 
we need in Europe.
    Mr. Brown. Thank you. And so you are confident that sort of 
like the balance of capabilities between nations and their 
ability to fulfill those requirements, it is either in place or 
on track to be in place?
    General Scaparrotti. I think the system to ensure that we 
get the right things noted to each of those countries is in 
place, but we have to continue to monitor whether or not they 
deliver that capability.
    Mr. Brown. Thank you. Ms. Wheelbarger, on the same line of 
questioning. In 2016, the International Board of Auditors for 
NATO found that under the NATO defense planning process, the 
process by which defense planning activities are harmonized 
across NATO, NATO struggles to deliver capabilities in time to 
meet dates set by its commanders and agreed by the NATO 
nations. I realize that is a 2-plus-year-old audit.
    The question is, what can be done to better ensure member 
nations are investing in the right capabilities and setting 
goals for national or collective development of capabilities? 
Sort of building on what General Scaparrotti mentioned. So we 
have got to stay vigilant. Is there anything in the process 
that we might do better?
    Ms. Wheelbarger. Well, I will just highlight one of the 
initiatives coming out of the last summit, which is our 430s 
initiative, which is to increase the readiness across the 
domains of the NATO allies.
    And watching that be implemented over the course of the 
next couple years I think will advance significantly what you 
are talking about, which is ensuring not only that we are 
meeting--that our allies are meeting number targets, but they 
are actually meeting the capability requirements and have the 
readiness of forces to be able to move in a timely fashion to 
actually address burgeoning threats.
    Mr. Brown. Thank you. With the little time I have 
remaining, just following up on Mr. Cook's question about 
essentially freedom of movement.
    Last year, General, I asked you about freedom of movement, 
I asked you to rate it green, yellow, red. You may remember, 
you gave it a yellow rating.
    And a few weeks after you testified, the EU released an 
action plan to create a military Schengen zone through a series 
of operational measures that tackle physical, procedural, and 
regulatory barriers which hamper military mobility.
    Using that same traffic light evaluation system, how would 
you rate the freedom of movement in Europe and what could we do 
to improve it?
    General Scaparrotti. I think it is definitely improved, but 
it is still yellow. Some of this takes investment in both rail 
and road, particularly bridges and tunnels that meet our 
military needs.
    So it is one of those things, for instance, the EU is 
putting about $7 billion into this. That has got to go into the 
right things at the right places. We in EUCOM have been an 
integral part of mapping this mobility problem out, and where 
are the things that we need to invest in.
    Mr. Brown. Do you know whether the investments in 
infrastructure that can be related directly to freedom of 
movement for military purposes, whether that counts against the 
2 percent? Perhaps Ms. Wheelbarger.
    Ms. Wheelbarger. In certain instances, yes.
    Mr. Brown. It does?
    Ms. Wheelbarger. If it meets military requirements, certain 
investments under NATO standards will apply to the 2 percent.
    Mr. Brown. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    General, I was very pleased to see the recent deployment of 
a THAAD [Theater High Altitude Area Defense] battery to Israel. 
I like what it says to Israel, but I like even more what it 
says to people that might wish Israel ill.
    I would like to know from you specifically, what does this 
add to our missile defense posture in the EUCOM AOR [area of 
responsibility].
    General Scaparrotti. Well, an integrated air and missile 
defense system is developed in a layered--the best ones are in 
a layered system. This one adds a high altitude, very, very 
good air defense system within Europe.
    And, importantly, it also gives us the opportunity to train 
with and work with the Israelis within a very good system that 
they have as well, which is something we need to do, given the 
mission to support that defense.
    Mr. Byrne. Do you see us having other needs for THAAD 
batteries or THAAD deployments in the EUCOM AOR?
    General Scaparrotti. Yes, I do. And it is a part of our 
system. Again, it is a very good asset, and linked in at times 
with us would be very helpful.
    Mr. Byrne. Do you see other needs changing in EUCOM with 
the end of the INF [Intermediate-Range Nuclear Forces] Treaty?
    General Scaparrotti. I do.
    Mr. Byrne. What would those be?
    General Scaparrotti. Well, I think that, first of all, we 
have been aware of the deployment of the SSC-8 [Russian cruise 
missile system], for instance. So there is a whole-of-
government approach. There is also a multi-domain approach 
simply from the military that we have already looked at.
    But we have got to begin to look at what our response is 
holistically and work with our allies on that, and we are in 
the process of doing that now.
    Mr. Byrne. And maybe you can't be more specific in a 
nonclassified setting. Can you be more specific than what you 
just said?
    General Scaparrotti. I would prefer to do that in a 
classified session.
    Mr. Byrne. I understand.
    Let me shift over to the three Baltic nations. There was, 
at least a couple years ago, a lot of concern about our ability 
to fulfill our requirements under the NATO treaty with them. 
Where do we stand on that today?
    General Scaparrotti. Sir, within the planning or the 
defense of the Baltics?
    Mr. Byrne. Yes, sir.
    General Scaparrotti. Yeah. Well, NATO has made good 
progress there as well. I mean, we have not only produced a 
plan, we are on the revision of the plan already from lessons 
learned. And it is we in EUCOM, from the U.S. perspective, have 
troops in the Baltics all the time as a part of our planning as 
well and interoperability.
    So I think it has advanced a good deal. It is not done. I 
mean, I think we have got some work to do yet.
    Mr. Byrne. I know that Ukraine is not a part of NATO, but I 
know that you watch it and are involved with it pretty 
carefully. Do you feel like Ukraine is making any progress in 
their efforts to push back against Russian aggression?
    General Scaparrotti. I absolutely do. I see the 
effectiveness and the confidence in their troops on the line of 
contact. It has definitely changed in the time that I have been 
in command. They are confident and good, disciplined, hard 
troops.
    Mr. Byrne. Ms. Wheelbarger, do you have some more you would 
like to add to what the general just said about the situation 
in Ukraine?
    Ms. Wheelbarger. Yeah, I would add at an institutional 
level there is also a healthy recognition in their leadership 
that they have to not only continue to improve their military 
capabilities, but again, as we discussed earlier today, improve 
their and reform their institutions, address their corruption 
challenges within their defense industry, as well as build and 
develop a sort of civ-mil relationship within their Ministry of 
Defence that they have actually made significant progress on.
    And we are going to continue to impress upon them the 
importance of continuing that progress, particularly if they 
want the whole of the U.S. assistance to be able to be 
utilized.
    Congress put a certification requirement for half of our 
assistance to go forward to make sure that they are making 
progress on these reforms, and they are making significant 
progress, including passing a national security law recently 
that they are now in the phase of implementing.
    Mr. Byrne. Well, I just want to say that I really 
appreciate what you said actually is confirming what I have 
been observing, but I wanted to sort of hear it from you. It 
seems like we have made a lot of progress with Ukraine in the 
last couple of years.
    Frankly, I got on this committee, and 1 month later is when 
Russia came and literally took Crimea. And for 2 or 3 years, 
sir, I have got to tell you, I was pretty worried where that 
was heading. But it seems like we have turned that situation 
around or they have turned that situation around with our and 
others' assistance. And I just appreciate the more aggressive 
stance that we are taking in helping them, and I hope that we 
will continue that.
    With that, Mr. Chairman, I yield back.
    The Chairman. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank the general for meeting with us, too, 
a couple weeks ago in Europe and for taking the time to meet 
with our delegation, the Speaker, and the people that 
accompanied her, like myself. And we had the opportunity to 
discuss issues that way.
    One of my roles is not just as a member of this committee, 
but also as chair of Europe, Eurasia, global energy, 
environmental issues in Foreign Affairs. And I recall the 
conversation I had with former Secretary of Defense Mattis one 
time, just saying that a lot of the investment issues, a lot of 
the trade issues there we are engaged with, I remember saying 
to him: That may not be directly in your lane, General, when it 
comes to Europe and NATO issues. And he stopped me right there 
and he said: It is definitely right in my lane in terms of 
those issues.
    And you have mentioned the threat of China. When I came 
away even as recently as a couple weeks ago looking long range 
at the challenges that we have and our European allies have, 
China was front and center in my mind coming home with the kind 
of strategy investments they are making. Not necessarily 
economic investments, but investments in obtaining intellectual 
property and to undermine some of the alliances or compete with 
some--in a better way of phrasing it--some of the alliances we 
have with our people.
    Could you comment on the nature of these and the challenges 
and the threats, potentially, of these Chinese investments in 
the European area with our NATO allies as well? I come away 
every time I think of this thinking that is where one of our 
primary focal points should be.
    General Scaparrotti. Yes, sir. If you take a look at Europe 
and you had a map before you and we could draw a circle around 
every seaport, airport, or critical commercial property that 
they have invested in, as an economic investment, one, you 
would be surprised at how many circles there are on that map in 
key places, in key ports and airports, as an economic 
investment by them, but they are security related as well.
    And so as Secretary Mattis said, when I am talking to my 
counterparts and the ministers of defense, that is one of the 
things I point out. I want to make sure they understand this 
isn't just about economics, it is about security also.
    Mr. Keating. Exactly.
    General Scaparrotti. And in the closed session, if you 
desire, I can go into a little more detail in that.
    Mr. Keating. Maybe more specifically, too, and generally, 
one of the things we are moving on in the Foreign Affairs 
Committee as well is giving alternatives with U.S. exports for 
energy and bolstering that. We all know that Russia has used 
that as a weapon in the past.
    Can you comment on the importance strategically of having 
diversity of energy in Europe as well?
    General Scaparrotti. I think it is critical, because we 
have got plenty of examples of Russia using that as leverage 
with countries. And within Europe it is about a third of the 
fuel oil and about a third of the liquefied gas, that they 
depend on Russia for that, generally, but some countries it is 
above 75 percent of their--you know, some of those countries, 
75 percent of their need is given by Russia.
    So it is absolutely a security issue, and diversity helps 
them not be leveraged by Russia in specific ways.
    Mr. Keating. Finally, Ms. Wheelbarger, you mentioned about 
Poland and the discussions. I don't know if you can mention 
this in an open setting, but are part of those discussions on 
issues, like the ones we are having with Poland right now in 
terms of military, do they include concerns about China and 
Huawei and other related issues as an example?
    Ms. Wheelbarger. I can assure you that in all our 
conversations with all our European partners we make very clear 
the threat of Chinese investment or development of the 
telecommunications infrastructure in Europe. The specific 
negotiations right now in Poland are very tied to the nature of 
our enablers and the presence there.
    But, again, throughout Europe, our concerns with the 
Chinese building their telecommunications infrastructure and 
the significant importance that has to our security footprint, 
as well as the ability for us to be confident in the security 
of our communications, both private communications as well as 
military, yes. But I am not going to say it is part of the 
negotiations going on right now.
    Mr. Keating. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman.
    General Scaparrotti, you mentioned the great power 
competition requires that we maintain a credible strategic 
deterrence. What contributions will our modernized nuclear 
triad system contribute to European stability and security, to 
the NATO alliance, and to our homeland defense, specifically in 
regards to the B-61 and the W76-2.
    General Scaparrotti. Well, specifically, I think it is just 
simply that that strategic deterrent is the foundation of our 
deterrence. Frankly, it is the most critical part. And we have 
got two adversaries at least, the two prominent adversaries in 
Russia and China, who are well into their modernization.
    So our triad has to be modernized in order to present that 
credible deterrent. And I think the investment that is being 
made is correct, and it is necessary.
    Dr. DesJarlais. Do you think the low yield, the development 
on our part is essential?
    General Scaparrotti. I do. I can talk to that more in the 
closed session, but I think it plays a vital role in this, yes.
    Dr. DesJarlais. You mentioned China and Russia's 
advancement in their modernization. Can you elaborate a little 
further exactly where they are at compared to where we are at 
or where we need to be?
    General Scaparrotti. I missed that, sir.
    Dr. DesJarlais. I said, you mentioned where China and 
Russia are at in their modernization. How does that compare and 
contrast to where we are at and where we need to be?
    General Scaparrotti. They are more advanced in theirs than 
we are.
    Dr. DesJarlais. Okay. In your testimony you discussed 
Russia's whole-of-society approach towards undermining U.S. and 
European objectives. Among other things, you specifically 
mentioned Russia's use of religious leverage. Could you 
elaborate on this whole-of-society approach and specifically 
what is meant by religious leverage?
    General Scaparrotti. For instance, in Eastern Europe the 
Orthodox Church is a very fundamental part of the fabric there 
of lives, and it is a Russian Orthodox Church. In some 
countries, like Ukraine, they have made a decision to have a 
separate Orthodox Church, Ukrainian Orthodox Church.
    That is being contested by the Russian leadership and by 
the Russian Government itself, and I believe that they promote 
the Russian Government's messaging and preferences through that 
religious capability.
    Dr. DesJarlais. Okay. I also have another question or two 
about ISR and hypersonic development. I think that would be 
best served in the classified setting.
    So thank you, and I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you both for 
being here. And, General Scaparrotti, best wishes to you as 
well.
    I wanted to go back. I know you had a discussion about NATO 
and the uncertainty that may perhaps our allies have in the 
region. I wonder if you could just really speak to that 
specifically, what you see, and whether there is an 
acknowledgment, even here, how would you like to see that 
better promoted of really the benefits of the alliance to the 
United States?
    Do you feel that that's been undermined to a great extent? 
Minimal extent? Could you speak about that a little bit more?
    General Scaparrotti. Well, I think that, first of all, 
there is a recent poll that I saw, and I can't quote where it 
came from, but it stated that at least the support within the 
United States public for NATO had come up this year. I saw it 
when I was in Brussels here not long ago. And that is a good 
indicator of the conversation we have had about NATO and our 
public's realization of the importance of Euro-Atlantic 
security. So I think that has improved actually because of the 
debate.
    There is a part of this, and I think it is true in Europe, 
where we had gone a long time period where we really didn't 
talk about NATO, we just kind of assumed it is important, 
everybody knew that. So this discussion has actually helped in 
some ways.
    The second I would say is what we need to do is we need to 
understand that we need to be collaborative with our allies. 
The nations in NATO understand that each nation in its 
sovereignty makes decisions and that they won't always be in 
agreement among the allies, but what they ask for is 
collaboration. And so that is what I would say is probably the 
most important, is making sure that we bring them in, that we 
are talking to them.
    When we did the INF here in the latter two stages in 
December and February, we were in discussion with them and we 
got a strong statement in support of that because we worked it 
as we went through it.
    Mrs. Davis. Ms. Wheelbarger, would you like to respond to 
that as well? If you could incorporate also the whole-of-
government approach. You know, we talk about that, but we also 
know that often at the State Department, our diplomatic 
efforts, and the fact that we don't have ambassadors in places 
that we should, that that certainly compromises our ability to 
project power, soft power, if you will.
    Ms. Wheelbarger. Sure. So the NATO alliance is, obviously, 
a military alliance, a security alliance, but they have a 
diplomatic component as well. And there are foreign 
ministerials as often as there are defense ministerials.
    So it is very important that the alliance, as we are with 
all our partnerships, quite frankly, that we look at them in a 
whole-of-government context. Our country teams are very 
important around the world. Obviously, having ambassadors in 
place helps us a great deal and having stability and continuity 
of messaging and highlighting the importance of our 
partnerships. So I do encourage the Senate to move forward on 
any pending nominations, because it is extremely important to 
our----
    Mrs. Davis. Do you feel that that has been true and that we 
have been able to counter some of the Russian disinformation 
campaigns that we have seen? Has that approach worked?
    Ms. Wheelbarger. I do think we are having successes. As we 
discussed earlier, we could most certainly always do more. We 
do need to make sure, for example, the Global Engagement Center 
that we discussed today is as robustly staffed and pushing 
forward on their mission as they can be. We are in close 
coordination with them on a daily basis to try to encourage as 
much interagency cooperation and forward-leaning activity as we 
can.
    It is a monumental challenge to try to stay both 
strategically on message but tactically agile in this space, 
and it is something that I do actually think we have seen 
successes, both bilaterally as well as in the alliance, in 
getting after the information operations challenge.
    Mrs. Davis. General, you have seen a lot in the European 
theater. What is it that wouldn't surprise you if you were to 
look at a paper 2 years from now and see some changes?
    General Scaparrotti. What would surprise me?
    Mrs. Davis. It is a little bit of the ``what keeps you up 
at night'' question. But I am just wondering, as you are 
leaving, what you can share with us in this setting that we 
ought to pay attention to.
    General Scaparrotti. Well, I kind of usually answer that in 
two ways, frankly.
    One is that we are in close proximity with Russian forces 
in a number of areas today, and at times they are very 
aggressive in their activity, and that I am concerned about. We 
have very disciplined forces, but Russia will occasionally put 
particularly our ships captains in a tight spot with their 
maneuvers. And that is one.
    The other is----
    The Chairman. I am sorry, I am going to have to ask you to 
wrap up so we can get to other people. If you have a quick 
summary, I don't want to cut you off.
    General Scaparrotti. And the second one is Balkans.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Chairman. And I appreciate both of 
you being here today. Very grateful to hear your thoughts.
    And, General Scaparrotti, I think forward presence is a big 
part of deterrence, and of course, over the last 25 years we 
have cut that down by about half in your theater.
    I also think a big part is training and equipping our 
allies on the forward line there. And you have talked a little 
bit about Poland, we are having some negotiations now. Can you 
talk a little bit more about the Baltics, because I think they 
are the most vulnerable. What more can we do to ensure or build 
deterrence with our Baltic friends?
    General Scaparrotti. Well, we are now presently making sure 
that we have troops there, as I said, just about all the time. 
I think to do more is to continue to build their capability 
with them, to have our forces present. We try to rotate our 
units out of that rotational unit there as often as we can. So 
that is one.
    We've got to continue to work with them. We need to 
continue to understand their plan vis-a-vis ours so that we 
know that we are nested.
    I think that in terms of our capabilities and theirs in 
indirect activity, below the level of warfare, is very 
important there because that is really Russia's first 
objective, and we can do much in that area as well.
    And then probably intelligence, because there again it is 
we are best as allies. They have some very good intelligence 
capabilities that we just don't have.
    Mr. Bacon. I have been very impressed with all three states 
in my travels there. Is there any interest or need for 
permanent air basing there or surface-to-air missile-type 
basing in any of those three countries?
    General Scaparrotti. I would rather go into that in a 
closed session.
    Mr. Bacon. Thank you. Getting to a question that Mr. Wilson 
asked about our energy reliance on Russian gas with some of our 
bases. If I understood you correctly, you are saying you are 
studying this reliance on Russian gas now to include the new 
hospital?
    General Scaparrotti. With respect to the hospital, in fact, 
there was a requirement in the NDAA [National Defense 
Authorization Act] to look at it from that perspective. And my 
understanding is that is working through this summer.
    Mr. Bacon. We all put that in the NDAA last time, because I 
am concerned. I was the commander at Ramstein at one time, so I 
happen to know that some of our bases there, to include the new 
hospital, do intend on using Russian gas. And it concerns me, 
because in a time of crisis the Russians could just turn that 
off.
    Is our concern well-founded or are we missing the boat 
here? I would just love to get your impression of this.
    General Scaparrotti. No, it is well-founded.
    Mr. Bacon. I have talked to some folks, and if we are using 
this Russian gas and it gets turned off, we could see some of 
our facilities down for 2 or 3 weeks. And I just think we have 
to have that resilience.
    So I would like to make sure I have your commitment or the 
EUCOM's commitment that they are looking at this and building a 
resilience plan.
    General Scaparrotti. You do, you have that. And you also 
can be assured that we look at how other fuels, et cetera, that 
we have to have, that we have got an assured delivery. So we 
look at it across the board.
    Mr. Bacon. Thank you. One last question on ISR. You have 
brought it up for 2 years now that there is a shortage, and we 
are going to talk a little bit more about it here shortly.
    But there is a proposal, I have seen one in the Pentagon 
that talks about doing away with our manned ISR, relying on 
space or RPAs [remotely piloted aircraft]. In a Phase Zero 
environment, how reliant are you on manned IRS right now?
    General Scaparrotti. I am reliant on manned ISR in a large 
way. But I would also----
    Mr. Bacon. It is a loaded question, I realize. I just 
wanted to hear how important it is to you because I think we 
need to keep it.
    General Scaparrotti. It is important. But I also think a 
mix is important, too.
    Mr. Bacon. I agree.
    General Scaparrotti. You know, a man in the loop there and 
driving it gives you some capabilities that an unmanned one 
doesn't. So I think both are important.
    Mr. Bacon. I absolutely agree, we need a mix, but I don't 
think walking away from manned ISR anytime in the near future 
makes sense, because I think in Phase Zero that is the lion's 
share of your intelligence production.
    Is there a EUCOM requirement to utilize--the F-35 has an 
extraordinary amount of sensors on board. And day-to-day 
operations, even a Phase II environment, that would be a big 
source of intelligence.
    Is there is a requirement there to get that information off 
the plane back to the AOC [air operations center] so the joint 
users can use that data?
    General Scaparrotti. Yes, there is. I can talk about that 
in a closed session as well, but it is an incredible aircraft.
    Mr. Bacon. That is great to hear.
    I yield back, Chairman.
    The Chairman. Thank you.
    Ms. Sherrill.
    Ms. Sherrill. Thank you.
    Thank you both for being here to testify today. I actually 
served at CINCUSNAVEUR [Commander in Chief, U.S. Naval Forces, 
Europe] as a Russian policy officer when it was in London. So I 
can tell you from personal experience how key our alliances are 
and our ability to project our power. And we have heard 
testimony in this committee about how key our alliances will be 
in our new National Defense Strategy.
    So I think I was particularly concerned about reports from 
the Munich Defense Conference about the success of Iran in 
courting our allies as we have seen a growing kind of schism 
between the United States and our traditional allies in Western 
Europe, politically speaking at the very least.
    I know you spoke a bit about Iran in opening statements, 
and I was wondering if you could comment on what you are seeing 
with respect to the influence of Iran and what we are doing to 
combat that influence.
    Ms. Wheelbarger. Our European partners obviously have some 
differences of opinion on some issues with respect to Iran, the 
JCPOA [Joint Comprehensive Plan of Action] being one of them.
    From our perspective in the Department of Defense, our 
goals over the last 2 years have been very much to stay aligned 
at a mil-to-mil or MOD [Ministry of Defense] level to make sure 
that we have a shared understanding of the threat, particularly 
the multi-natured of it, whether it be the cyber threat, the 
ballistic missile threat, the maritime threat.
    And so--most of our work is focused on making sure we are 
aligned in how we see the threat and what joint efforts, 
whether they be planning or messaging, we can do to contest it. 
So we actively engage our European partners.
    It is true that we, again, we have differences of opinion 
about the JCPOA, and we have been attempting to keep the mil-
to-mil and MOD relationships strong so we can both understand 
the threat and be prepared to respond if we can and need to 
together.
    Ms. Sherrill. And do you think that is resonating with our 
allies, that they understand the threat that Iran poses?
    Ms. Wheelbarger. I do think there is an increasing 
understanding, particularly with respect to the ballistic 
missile challenge.
    I think the threats emanating from Yemen, in particular, 
into Saudi Arabia and UAE [United Arab Emirates] that pose a 
significant real day-to-day threat to our partners in that 
region and potentially risk sort of a regional conflict in a 
way that nobody wants to see, there is an increasing 
understanding of that challenge. I mean, we are even seeing 
some of our European partners start talking again about 
sanctions related to the missile program.
    So those are the sorts of activities that the Department of 
Defense is very much focused on with respect to Europe and 
Iran.
    Ms. Sherrill. Great. And then just to give some context, do 
you have a sense of what percentage of the telecom 
infrastructure China has been involved in, in Europe?
    General Scaparrotti. What I would like to do, I can give 
you that in the closed session. I would just say that there is 
substantial involvement in telecommunications in specific 
countries, some included NATO, NATO countries.
    Ms. Sherrill. Great. Thank you both.
    I yield back.
    The Chairman. Thank you.
    As I mentioned at the outset, we have a hard stop at noon. 
As the questions have sort of generated here, there is a lot of 
stuff to talk about in the classified setting. So I am going to 
stick to that, which means in all likelihood Mr. Gallagher and 
Mrs. Luria are the last two people who are going to ask 
questions, unless they do it really quick. So we will see.
    Mr. Gallagher, you are up.
    Mr. Gallagher. First of all, I would agree with what the 
chairman said earlier that any cost plus 50 demand on our 
allies would be--I forget the adjective he used, monstrously 
stupid, something to that effect, stupendously ill-advised, 
extravagantly dumb. I just think it is the wrong time to be 
sending that message and would like to go on record as agreeing 
with the chairman in that regard.
    I want to pull the string on the earlier line of 
questioning. General Scaparrotti, help us tease out sort of the 
operational implications of companies like Huawei and ZTE 
signing contracts with Germany, or take your pick, European 
allies. What does that actually mean from an operational 
perspective? How does it affect you as a theater commander?
    General Scaparrotti. Well, we are concerned about their 
telecommunications backbone being compromised in the sense 
that, particularly with 5G, the bandwidth capability and the 
ability to pull data is incredible. And with that system you 
also tend to get an Internet of Things.
    So its influence is much greater. This is a big difference 
from 4G. And because of that, it would have a critical impact 
on our ability just to communicate with those nations, some of 
which are NATO nations.
    Now, secondly, if it also is inside of their defense 
communications then we are not going to communicate with them 
across those defense communications, and for the military that 
would be a problem.
    Mr. Gallagher. Are there ways to mitigate that problem from 
your perspective, besides convincing them not to sign those 
contracts in the first place?
    General Scaparrotti. Probably best to ask to someone that 
does this, but to my knowledge right now, to be sure that we 
have a secure system, I don't know of one if they are shifting 
to Huawei.
    Mr. Gallagher. Ms. Wheelbarger, do you have anything to 
add?
    Ms. Wheelbarger. Yeah. Having looked into Huawei quite a 
bit a few years ago, I realized the challenges of even having a 
mitigation plan or strategy for the 4G infrastructure. Given 
the sort of generational shift that is between 4G and 5G, I am 
not aware of something that would give us the kind of security 
we would need to mitigate the challenges that it would impose 
on us.
    Mr. Gallagher. Appreciate that. General, I know you are a 
ground guy, but something we are trying to pay more attention 
to on the Seapower Subcommittee is mine warfare. Since World 
War II, sea mines have damaged or sunk four times more U.S. 
Navy ships than all other means of attack.
    Do we have a capacity and capabilities gap in the 
Mediterranean with respect to the Russian mine threat? I would 
just be interested in your thoughts on that.
    General Scaparrotti. Within that capability we rely on our 
allies to provide part of that. I think with our allies we are 
doing pretty good. But as a U.S. only, I would say we probably 
have a gap.
    But, again, that is one of those where you look at your 
allies, what capabilities they have and where can they do a 
mission, so that we can apply our capabilities in other areas. 
So I am pretty comfortable with it right now.
    Mr. Gallagher. And then there was an earlier line of 
questioning, I forget from who, that seemed to suggest that 
investments in tanks in Eastern Europe were not as efficacious 
as perhaps investment in cyber, or it was an either-or 
scenario. I would like to give you a chance to respond to that. 
I mean, what role do systems like tanks play in doing 
deterrence by denial in Eastern Europe?
    General Scaparrotti. Yeah, I am glad you allowed me to come 
back to that.
    It is not an either-or. In today's world this is a multi-
domain environment that we are in. And the Russians have a very 
credible and increasing mechanized armor capability, 
particularly in our east, across the border. And you can't say 
it is simply one or the other. It is all things, cyber 
connected to that.
    Mr. Gallagher. I appreciate that.
    And I yield the balance of my time.
    The Chairman. Thank you.
    Ms. Hill.
    Ms. Hill. Are you ready? I just didn't have my stuff out. 
Give me a moment.
    Mrs. Luria, can I trade with you?
    Mrs. Luria. Well, General Scaparrotti and Ms. Wheelbarger, 
thank you for being here today.
    General Scaparrotti, in your prepared remarks you noted the 
increase in Russian maritime presence in the Eastern 
Mediterranean and the deployment of the submarine Severodvinsk 
in the northern Atlantic. And in the past 15 years we have 
really focused our naval efforts in both the CENTCOM [U.S. 
Central Command] and the PACOM [U.S. Indo-Pacific Command] 
AORs.
    Does this submarine deployment and other Russian naval 
activity increase the need that you have for U.S. naval 
presence in EUCOM?
    General Scaparrotti. Yeah, that is the basis of my request 
for an increase. For instance, in the Med, we saw the largest 
grouping of Russian ships in probably 15 years, it was 8 Kalibr 
[cruise missile] shooters, 12 ships total.
    Mrs. Luria. And so to add to that, public reporting shows 
that those Russian ships are also operating in coordination 
with the Chinese in the Black Sea and the Mediterranean. Is 
that correct?
    General Scaparrotti. I wouldn't go so far as to say in 
coordination. They do train together from time to time in small 
numbers.
    Mrs. Luria. So NATO has four standing NATO maritime groups, 
SNMGs. I am particularly interested in SNMG 1 and 2. So in the 
past 3 years has the U.S. provided consistent rotational 
presence for both of these maritime groups?
    General Scaparrotti. I think we provided the presence that 
they expect. We rely on our NATOs to fill, you know, our NATO 
allies to fill those mostly.
    Mrs. Luria. So we don't consistently participate? Am I 
correct in saying that we have only participated in the last 4 
years when we were the flagship in charge of the group?
    General Scaparrotti. Usually when we are the flagship, that 
is correct. But we typically have the ships that are also at 
sea in other areas.
    So I think, again, this is one of those where you look at 
what capabilities you have and what nations can provide and 
what we are best at providing.
    Mrs. Luria. So having operated with NATO allies, I know 
that it takes a long time to fold in, to become proficient in 
the C2 [command and control] architecture operating with NATO. 
So if we don't consistently operate with our NATO allies and 
have that practice and officers and crews who are knowledgeable 
about how to integrate with those C2 systems, does it really 
reinforce our commitment to NATO that when we show up to the 
fight we are ready to fight in a coordinated way?
    General Scaparrotti. We work in a C2 architecture with NATO 
every day, 24 hours a day. And we can bring a ship in and out, 
connect and disconnect, we keep that architecture, both air and 
sea, up.
    An example of that was the fires into Syria with two of our 
NATO allies, put together in about 72 hours, a very intricate 
high-end mission, and we executed it time on target.
    So to your point, we do have to work with them, but it 
doesn't necessarily mean they have got to be in that group. But 
we do have to work with them throughout exercises and day to 
day.
    Mrs. Luria. Okay. And shifting topics, did the Navy provide 
your requested carrier presence in FY [fiscal year] 2019? And 
saying that this is an unclassified setting, would you classify 
that as roughly one-half, one-third of what you requested did 
you actually receive?
    General Scaparrotti. I would say no, and it was less than 
half.
    Mrs. Luria. And we have shifted to the Optimized Fleet 
Response Plan, the OFRP, and that creates more surge capability 
than it does actual deployed capability for our naval forces. 
As a combatant commander, which of those two is most important 
to you for doing your mission?
    General Scaparrotti. Well, again, mine is predictability.
    Mrs. Luria. Right. So is it more important for you to have 
presence in the Mediterranean and the northern Atlantic, or to 
have the ships ready a week away next to the pier in Norfolk 
and Mayport?
    General Scaparrotti. Well, to answer your question, the 
system that the Navy has shifted to has actually given me more 
capability at the times that I need it in very large ways, like 
Trident Juncture [exercise], and in an unpredictable pattern 
for our adversaries.
    So it has improved; it is not everything that I want.
    Mrs. Luria. Okay. Thank you. I yield my time.
    The Chairman. Thank you.
    If I may, Ms. Hill, I am going to do this a little 
awkwardly here, it is not worth getting into, but we are going 
to take Mrs. Hartzler and Ms. Hill before we get done. We will 
just do it that way.
    So, Mrs. Hartzler, you are recognized for 5 minutes. Then, 
after, this I will recognize Ms. Hill for 5 minutes.
    Mrs. Hartzler. Great. Thank you very much, Mr. Chairman.
    The Chairman. You are not obligated to take all 5, however.
    Mrs. Hartzler. You bet. You bet. I am going to talk quick.
    Follow up on two lines of questioning from earlier to 
expand a little bit. You mentioned and we talked about the 
Chinese influence in Europe and their economic presence. You 
mentioned the seaport investments, the airport.
    But last year we had a joint military exercise between 
China and Russia, and I don't believe we talked about that yet. 
So can you discuss some of China's military objectives in the 
region and what we should take away from such partnership 
events as the 2018 Russia and China war games?
    General Scaparrotti. Well, I think it was just to show some 
unity when they can. They did take part in the war games in 
Russia's eastern command this year. But while significant in 
the fact that the two were working together, and we should 
recognize that, it was not all that Russia promoted it to be.
    And, again, in terms of their operations within Europe, 
again, it is in small numbers, not highly involved operations 
when they do it, or at least exercises, but it is becoming 
routine. And, again, we need to pay attention to that.
    I think their objective is, China's objective is to show 
their presence in Europe, not only in an economic way, but in 
small ways with their military.
    Mrs. Hartzler. Okay. Great.
    We talked about the infrastructure issues and the freedom 
of movement. I was encouraged to hear about moving the brigades 
and the advancements we have had.
    But specifically with railroad track gauges, this is 
something that came to our attention through this committee a 
couple years ago, and I have been really trying to focus in on 
this.
    Can you tell me kind of what is being done to address some 
of these challenges?
    General Scaparrotti. That is predominantly, as I noted 
before, that is the work that we are doing through NATO and EU 
to focus that infrastructure funding that they are doing on 
things like that, and that is one of the major ones. It is 
still not resolved.
    Mrs. Hartzler. Is there any discussion taking place about 
changing the railcar capabilities versus the gauges. I come 
from a farm equipment background and my first thought was, why 
can't you just have the wheels on the actual railroad car be 
able to move in and move out?
    General Scaparrotti. I don't know the answer to that 
question.
    Mrs. Hartzler. All right. Well, it might be something worth 
pursuing.
    Thank you very much, and I yield back. Thank you.
    The Chairman. Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman, for dealing with me 
making the situation awkward, particularly when I sit down at 
the wrong chair and can't find my questions.
    But, Ms. Wheelbarger and General Scaparrotti, thank you for 
being here.
    In 2018, Greek officials said that there was irrefutable 
evidence that Russia was working to interfere with negotiations 
over North Macedonia's name change and its accession to NATO.
    Can you describe what that was, as well as what the U.S. 
and other alliance members' counterresponse was?
    Ms. Wheelbarger. Yes. I think we saw the basic behavior 
that we typically see from Russia, which is information 
operations attempting to sow discord within North Macedonia, to 
suggest that NATO was not in their future, that the East was 
really to their future.
    So it was really across the spectrum of what we see from 
Russia. I think what we said, we discussed a little bit 
earlier, they did not have the success they were expecting.
    I think in some ways, I heard from the North Macedonians 
recently, that Russian efforts to undermine NATO actually 
worked against them. NATO has a very strong standing within 
North Macedonian society, and that we were able to--the North 
Macedonians themselves did a very effective job in countering 
those messages and getting out in front of the messages before 
they were even sent from the Russians.
    Ms. Hill. Okay.
    General Scaparrotti. I would agree.
    Ms. Hill. Great. Thank you.
    And what has the U.S. been doing right or wrong in the 
Balkans? And I will continue with that so you don't have to 
answer multiple things. What risks still exist and what more 
should be done?
    Ms. Wheelbarger. As General Scaparrotti said earlier, the 
Balkans remains one of our areas of most concern. It has a 
historical legacy of fomenting discord. I think the Russians 
are very much active there, whether it be religion, ethnicity, 
or other aspects of the society. In all these countries they 
are seeking to pull them apart and pull them away from the 
West. We can always do more to influence their decision making 
and try to bring societies there along to the West.
    I think of particular concern for us right now are the 
ongoing challenges between Kosovo and Serbia and we have sort 
of a whole-of-government effort to try to get them back to the 
table to resolve their differences.
    I think we could probably be better at making sure, just in 
general, that our messages as a government are aligned so they 
understand clearly that we want them to negotiate this amongst 
themselves and that we see it being in both Serbia and Kosovo's 
favor to do so quickly.
    General Scaparrotti. Yeah, I would leave it at that in the 
sense that I think a redoubled effort within Kosovo and Serbia 
for their resolution of those problems, as well as what comes 
beyond the Dayton Accord within Bosnia, just a renewed focus 
from the West I think would go a long way. Because the people 
need to see that we are still engaged and supportive of their 
desire to look West.
    Ms. Hill. And when you say consistency, where is the 
disconnect there? What do you see that manifesting in?
    Ms. Wheelbarger. Maybe for closed door I can explain a 
little bit more. But I just think we need to make sure that we 
are always explaining that all of their tools should be on 
their table to solve and bring to normalization in the best 
interests of those two countries. There are ongoing disputes 
about the tariffs, for example, in Kosovo and how we should be 
addressing that challenge. I think we need to be putting this 
always in the broader context of what is the best for the two 
countries.
    Ms. Hill. Thank you so much. And I yield back.
    The Chairman. Thank you. We are adjourned.
    [Whereupon, at 12:07 p.m., the committee proceeded in 
closed session.]

     
=======================================================================

                            A P P E N D I X

                             March 13, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2019

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. LARSEN

    Mr. Larsen. General Scaparrotti, in your testimony, you highlight 
Russia's violation of the Open Skies treaty as undermining military 
transparency in Europe. But late in 2018, the State Department stated 
that Russia was back into compliance. It seems to many of us, myself 
included, that this Administration is inherently hostile to arms 
control agreements with Russia, as demonstrated by INF withdrawal and 
the lack of public commitment to extending New START. But I know that 
allies, particularly in Eastern Europe, value the information gained 
from Open Skies flights, and see this treaty as a key component to 
stability in the region. In light of the State Department certification 
of Russian aircraft, can you please clarify your statement on Russia's 
compliance with the Open Skies Treaty, and speak to the interest our 
allies have in the U.S. remaining in the treaty?
    General Scaparrotti. Our European Allies place great value on the 
Open Skies Treaty as well as other arms control treaties and 
agreements. Despite this, many of our Allies are frustrated with 
Russia's lack of compliance, or partial compliance, with arms control 
agreements. NATO issued strong unified statements in support of the 
U.S. position on Intermediate Range Nuclear Forces Treaty, placing 
blame for the demise of the treaty solely on Russia. On the Open Skies 
Treaty, State Department originally cited Russia for noncompliance in 
three areas. The first violation involved Russia giving priority to air 
traffic over Open Skies missions over Russia, resulting in the 
overflights being delayed or canceled altogether. In Sep 18, Andrea 
Thompson, Under Secretary of State for Arms Control, stated that Russia 
had corrected this violation during testimony to the Senate Committee 
on Foreign Relations. Second, Russia remains in violation of Open Skies 
for limiting the flight distance allowed for countries conducting 
missions over Kaliningrad, preventing them from fully observing that 
strategically sensitive enclave. Many Allies, not just the U.S., have 
encountered this violation. Missions over Russia so far this year 
confirm that these restrictions remain in place and that Russia is 
still in violation of the treaty in this area. The third violation 
involves Russian-imposed limits for flights near the Georgian 
territories of Abkhazia and South Ossetia. Russia recognizes them as 
sovereign countries, not party to the Open Skies Treaty, and therefore 
restricts flights from coming within 10 kilometers of the Russian 
border with those territories. Georgia, the U.S., and all other 
countries party to the treaty, with the exception of Belarus, disagree 
with this position. Russia suggested it would resolve this issue in 
late 2018, however, during a recent 2019 mission Russia again refused 
overflight within 10 kilometers of its borders with South Ossetia and 
Abkhazia and remains in violation of this provision of the Open Skies 
Treaty.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. The Aegis Ashore sites in Poland and Romania remain a 
high priority for me because they provide first line missile defense 
capabilities for our allies in EUCOM against Iranian missile threats. 
I'm disappointed to hear that there has been significant delay on the 
Poland site. When do you expect this capability to be on-line? How much 
of a slip is that from the original project start? Who is being held 
accountable for this mismanagement? How is EUCOM working to get this 
project back on track?
    General Scaparrotti. The Aegis Ashore Poland site is on track to 
achieve Technical Capability Declaration (TCD) along with Operational 
Acceptance in CY 20. This will be approximately 18 months from the 
planned TCD of Dec 2018. This project was delayed for several reasons, 
including underestimating project complexity, slow mobilization, and 
challenges with staffing of skilled trades. Missile Defense Agency, 
U.S. Army Corps of Engineers, and the United States Navy, continue to 
use all available tools to keep the project on track for CY 2020 
completion.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. A number of congressional colleagues, particularly 
those not on this committee, are often surprised to hear that we have 
no permanently based troops in Latvia, Lithuania, or Estonia, despite 
them being NATO allies. The main reason given for this state of affairs 
is that Russia would be upset by our proximity to their borders. Why 
does Russia continue to get a veto of NATO and U.S. activity within the 
alliance when Moscow persists in fomenting unrest along those borders?
    Ms. Wheelbarger. Russia has no veto on U.S. or NATO activity. 
Allies recently agreed to invite Montenegro and North Macedonia to join 
the Alliance despite the Russian Government's strong objections. 
Additionally, NATO has seen a remarkable increase in defense spending, 
readiness, and exercises over the past few years. Our forces in Europe 
are postured to provide our theater commander the maximum flexibility 
to deter aggression and to defend, fight, and win should deterrence 
fail. This is in accordance with our National Defense Strategy concept 
of Dynamic Force Employment and our Global Operating Model. U.S. force 
posture is closely linked to, and integrated with, that of our NATO 
Allies. Each Baltic State, and Poland, enjoy the presence of a NATO 
enhanced Forward Presence (eFP) battlegroup of approximately 1,200 
military personnel. The United States is the framework nation for the 
battlegroup located in Eastern Poland. The United States is also a 
regular contributor to the NATO Baltic Air Policing mission over 
Estonia, Latvia, and Lithuania, which provides a continuous presence of 
Allied fighter aircraft that are ready to respond quickly to the 
violation of the Baltic States' airspace. In 2018, more than 6,000 U.S. 
military personnel trained and exercised in the Baltic States and more 
than 28,000 personnel, along with U.S. strategic bombers, guided 
missile destroyers, and U.S. Navy carrier aviation, were present in the 
broader Baltic Sea region providing deterrence. U.S. military personnel 
are permanently assigned to the NATO force integration units located in 
the Baltic States as well as to various multinational headquarters, and 
centers of excellence.
    Mr. Gallego. A number of European Deterrence Initiative projects 
are on the list of MILCON projects that are at risk of cuts associated 
with the President's National Emergency declaration. Please identify 
which specific EDI MILCON projects, designed to increase readiness and 
lethality, previously identified by DOD as critically needed to deter 
Russian aggression, and funded by Congress, are less important than a 
wall in Texas, Arizona, or California?
    Ms. Wheelbarger. On March 19, 2018, the Department identified a 
complete pool of unawarded military construction projects from which 
funding could be reallocated to support the construction of a border 
barrier. The Department is reviewing the pool of unawarded projects, 
focusing on those projects with award dates planned for fiscal year 
2020 or later, in order to minimize potential impacts due to a delay in 
funding. No military housing, barracks, or dormitory projects will be 
impacted. No definitive date has been set for the Acting Secretary of 
Defense's determination on the use of Section 2808 authority or for 
identifying a final list of military construction projects that could 
be deferred.
    Mr. Gallego. The President's Budget Request once again puts 
European Deterrence Initiative (EDI) money in the Overseas Contingency 
Fund (OCO). How can you effectively deter Russia using 1-year money? 
Isn't deterrence a multi-year, continuing commitment? Should EDI money 
be in the base budget?
    General Scaparrotti. Yes, EDI money should be in the Department's 
base budget as base budgets have greater stability. The sustained 
funding of EDI by Congress has been instrumental in ensuring a ready 
and capable force in order to implement the National Defense Strategy 
as well as fulfilling the deterrence and military missions assigned to 
USEUCOM and its Components. While it has been included as part of the 
OCO budget since its inception, the Department annually develops an EDI 
multi-year budget plan to ensure all stakeholders, to include Congress, 
have an understanding of what future investments are required.
    Mr. Gallego. Lieutenant General Ben Hodges, recently retired 
commander of U.S. Army Europe, has said that he could support basing in 
Poland if NATO as a whole agreed to it. What is your position on basing 
in NATO's east? Have you pushed NATO as an organization to agree on 
additional U.S. or allied basing in Poland, the Baltic States, or the 
Baltic Sea region?
    General Scaparrotti. NATO's rotational enhanced Forward Presence 
battlegroups in Estonia, Latvia, Lithuania and Poland are demonstrating 
NATO's commitment to deterrence and posturing for defense in 
northeastern Europe. We believe that permanently stationing U.S. forces 
in NATO's east would be unnecessarily provocative, and that many of our 
Allies would not be supportive. It would give Moscow an easy 
opportunity to claim that NATO is an aggressor and provide Russia a 
narrative that they need to respond to protect Russian sovereignty. 
Additionally, a base in Eastern Europe may not even be necessary, as 
our exercise and deployment program, along with the placement of 
prepositioned stocks, are part of a robust effort to ensure sufficient 
deterrence. U.S. Army forces execute regular rotational deployments 
from their home stations in the U.S. to Central and Eastern Europe. 
These deployments enhance Army readiness and exercise those exact 
processes required to rapidly deploy in a real crisis.
    Mr. Gallego. A number of congressional colleagues, particularly 
those not on this committee, are often surprised to hear that we have 
no permanently based troops in Latvia, Lithuania, or Estonia, despite 
them being NATO allies. The main reason given for this state of affairs 
is that Russia would be upset by our proximity to their borders. Why 
does Russia continue to get a veto of NATO and U.S. activity within the 
alliance when Moscow persists in fomenting unrest along those borders?
    General Scaparrotti. Russia does not have a veto on U.S. or NATO 
rotational or permanent force posture within the Alliance. U.S. and 
NATO posture is based on multiple strategic and operational 
considerations. These includes existing U.S. and NATO policies, such as 
the Alliance's continued adherence to the NATO-Russia Founding Act 
which provides a commitment to all of the parties that Allies would not 
to permanently station substantial combat forces on the territory of 
former Warsaw Pact nations. Other critical considerations include 
maintaining the combat readiness of our forces to respond to a crisis 
wherever one might arise, military mobility within the theater, and 
managing the risk of escalation in light of a pattern of unsafe 
behavior by Russian personnel in close proximity to NATO and U.S. 
forces.
    Mr. Gallego. A number of European Deterrence Initiative projects 
are on the list of MILCON projects that are at risk of cuts associated 
with the President's National Emergency declaration. Please identify 
which specific EDI MILCON projects, designed to increase readiness and 
lethality, previously identified by DOD as critically needed to deter 
Russian aggression, and funded by Congress, are less important than a 
wall in Texas, Arizona, or California?
    General Scaparrotti. European Command continues to focus on 
identifying the requirements needed to successfully execute the 
missions and responsibilities tasked in the National Defense Strategy. 
The Department's military construction program (funded by the base 
budget as well as the European Deterrence Initiative) is critical to 
establishing a combat-credible posture in Europe. In particular, the 
infrastructure and prepositioning projects supported by military 
construction will set the theater to enable the rapid deployment of 
U.S. forces to the theater as well as increase military mobility within 
the theater. Delaying the implementation of these projects lengthens 
the window of increased risk to strategic competition with Russia and 
deterrence and defense in Europe.
    Mr. Gallego. In his announcement that he would declare a national 
emergency at the southern border to build a wall, President Trump said, 
quote: ``We have certain funds being used at the discretion of 
generals''. . . ``Some of them haven't been allocated yet, and some of 
the generals think this is more important. I was speaking to a couple 
of them--they think this is far more important than what they were 
going to use it for. I said `What were you going to use it for?' I 
won't go into details, but it didn't sound too important to me.'' 
General Scaparrotti, do you believe that unallocated funds designated 
for USEUCOM are better spent at the southern border than in USEUCOM?
    General Scaparrotti. The Department's military construction program 
(funded by the base budget as well as the European Deterrence 
Initiative) is critical to establishing a combat-credible posture in 
Europe in accordance with the National Defense Strategy. In particular, 
the infrastructure and prepositioning projects supported by military 
construction set the theater to enable the rapid deployment of U.S. 
forces to the theater as well as increase military mobility within the 
theater. Delaying the implementation of these projects lengthens the 
window of increased risk to strategic competition with Russia and 
deterrence and defense in Europe.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Do you have any concerns about China's influence over 
European information and communication technologies, such as 
development of 5G networks across Europe? Is this something you are 
monitoring? Are there any actions needed?
    Ms. Wheelbarger. The Department of Defense is indeed closely 
monitoring China's influence in Europe, in particular, as Chinese 
information and communication technology firms, such as Huawei and ZTE, 
increase investments in the European market. Although 5G and other 
emerging technologies are certain to improve vastly our communication 
with Allies and partners across the globe, these new tools also present 
new challenges and vulnerabilities that adversaries are likely to 
exploit. We are working closely with our NATO Allies and with our 
European partners to reinforce an informed and forward-leaning 
collective approach to dealing with Chinese investment in European 
information and communication technologies and address potential 
threats from Chinese investments, technologies, and other influence in 
a clear manner.
    Ms. Stefanik. In light of the new cyber strategy and out recent 
efforts to keep our 2018 elections secure from adversarial influence, 
can you update us on how your relationship is maturing with U.S. Cyber 
Command?
    General Scaparrotti. [The information was not available at the time 
of printing.]
    Ms. Stefanik. Do you have any concerns about China's influence over 
European information and communication technologies, such as 
development of 5G networks across Europe? Is this something you are 
monitoring? Are there any actions needed?
    General Scaparrotti. [The information referred to is for official 
use only and retained in the committee files.]

                                  [all]
</pre></body></html>
